App.la
MEMORANDUM* OPINION
OF THE NINTH CIRCUIT
(OCTOBER 26, 2018)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FREDERIC C. SCHULTZ,
Plain tiff-Appellan t,
v.
JOHN G. ROBERTS, Jr., Chief Justice
of the United States; DONALD J. TRUMP,
Defendants-Appellees.
No. 17-56852
D.C. No. 3:17-cv-00097-WQHKSC
Appeal from the United States District Court
for the Southern District of California
William Q Hayes, District Judge, Presiding
Submitted October 22, 2018**
Before: SILVERMAN, GRABER, and
GOULD, Circuit Judges.

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.2a
Frederic C. Schultz appeals pro se from the dis­
trict court's judgment dismissing his action alleging
that the 2016 presidential election violated his constitu­
tional rights. We have jurisdiction under 28 U.S.C.
§ 1291. We review de novo a district court’s dismissal
for failure to state a claim under Federal Rule of
Civil Procedure 12(b)(6). Thompson v. Paul, 547 F.3d
1055, 1058 (9th Cir. 2008). We affirm.
The district court properly dismissed Schultz's
action because Schultz failed to allege facts sufficient
to state a plausible constitutional claim arising from
the election of President Trump by the Electoral Col­
lege. See U.S. Const, amend. XII (providing for elec­
tion of the president by Electoral College); Gray v.
Sanders, 372 U.S. 368, 380 (1963) (“The only weigh­
ing of votes sanctioned by the Constitution concerns
matters of representation, such as . . . the use of the
electoral college in the choice of a President”).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief, or
arguments and allegations raised for the first time
on appeal. See Padgett v. Wright, 587 F.3d 983, 985
n.2 (9th Cir. 2009).
AFFIRMED.

App.3a
MANDATE OF THE NINTH CIRCUIT
(APRIL 1, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FREDERIC C. SCHULTZ,
Plain tiff-Appellan t,
v.
JOHN G. ROBERTS, Jr., Chief Justice
of the United States; DONALD J. TRUMP,
Defendants-Appellees.
No. 17-56852
D.C. No. 3:17-cv-00097-WQH-KSC
U.S District Court for the
Southern California, San Diego
The judgment of this Court, entered October 26,
2018, takes effect this date.
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.

App.4a
FOR THE COURT:
Molly C. Dwver
Clerk of Court
By: Craig Westbrooke_____
Deputy Clerk
Ninth Circuit Rule 27-7

App.5a
JUDGMENT OF THE
DISTRICT COURT OF CALIFORNIA
(OCTOBER 11, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
FREDERIC C. SCHULTZ, an Individual,
Plaintiff,
v.
Chief Justice of the United States
JOHN G. ROBERTS, JR.; DONALD J. TRUMP,
“President-Elect” of the United States of America
Defendants.
Civil Action No. 17-cv-97-WQH-KSC
Decision by Court. This action came to trial or
hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED:
Defendants’ Motion to Dismiss is granted. The
Complaint is dismissed with prejudice.

App.6a
CLERK OF COURT:
John Morrill
Clerk of Court
By: /s/ M. Cruz
Deputy Clerk
Date: 10/11/2017

App.7a
ORDER OF THE
DISTRICT COURT OF CALIFORNIA
(OCTOBER 10, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
FREDERIC C. SCHULTZ,
Plaintiff,
v.
CHIEF JUSTICE OF THE UNITED STATES
JOHN G. ROBERTS, JR. and DONALD J. TRUMP,
“President” of the United States of America
Defendants.
Case No.: 17-CV-0097 WQH (KSC)
HAYES, Judge:
The matter before the Court is the Motion to
Dismiss filed by John G. Roberts, Jr. and Donald J.
Trump (collectively, “Defendants”). (ECF No. 9).
I.

Background

On January 19, 2017, Frederic C. Schultz initiated
this action by filing a Complaint against Defendants.
(ECF No. l). On June 13, 2017, Defendants filed a
Motion to Dismiss the Complaint. (ECF No. 9). On July
7, 2017, Schultz filed a Response in Opposition to
Defendants’ Motion to Dismiss. (ECF No. 11).

App.8a
II. Allegations of the Complaint
“Schultz is a resident of the State of California,
and a[s] such, cast a vote in the November 8 2016 Pre­
sidential election for Democratic candidate Hillary
Clinton.” (ECF No. 1 at 1 1.)
The final vote tally... in the general
election held on Nov. 8 is Hillary Clinton
with 65,844,954 (48.2%) compared to Donald
Trump receiving 62,979,879 (46.1%) votes ...
Despite this [vote tally], the Electors awarded
the presidential election to Donald Trump
... Therefore, compared to the actual number
of votes cast, people who voted for Hillary
Clinton had [theilr votes diluted ...”
Id. at HI! 7-8. As a result, Donald Trump’s assumption
of the office of the President of the United States
pursuant to the 2016 presidential election, and his
continued occupation of that office, “violate [ ] Schultz’s
right [s] and the rights of all other citizens who voted
for [Hillary] Clinton, under the Fifth Amendment’s
and Fourteenth Amendment’s guarantees of equal
protection of the laws . .. .” Id. at TJ 10.
III. Applicable Standard
Federal Rule of Civil Procedure 12(b)(6) permits
dismissal for “failure to state a claim upon which
relief can be granted.” “A pleading that states a claim
for relief must contain ... a short and plain statement
of the claim showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2). Dismissal under Rule
12(b)(6) is appropriate where the complaint lacks a
cognizable legal theory or sufficient facts to support a

App.9a
cognizable legal theory. See Balistreri v. Pac. Police
Dep’t, 901 F.2d 696, 699 (9th Cir. 1990).
“[A] plaintiffs obligation to provide the ‘grounds’
of his ‘entitle[ment] to relief requires more than
labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(quoting Fed. R. Civ. P. 8(a)(2)). When considering a
motion to dismiss, a court must accept as true all
“well-pleaded factual allegations.” Ashcroft v. Iqbal,
556 U.S. 662, 679 (2009). “In sum, for a complaint to
survive a motion to dismiss, the non-conclusory factual
content, and reasonable inferences from that content,
must be plausibly suggestive of a claim entitling the
plaintiff to relief.” Moss v. U.S. Secret Serv., 572 F.3d
962, 969 (9th Cir. 2009) (quotations omitted).
A district court may dismiss a claim without leave
to amend if “any proposed amendment would be futile.”
Reddy v. Litton Indus., Inc., 912 F.2d 291, 296 (9th
Cir. 1990) (citing Klamath-Lake Pharmaceutical Ass’n
v. Klamath Medical Serv. Bureau, 701 F.2d 1276, 129293 (9th Cir.)).
IV. Analysis
Schwartz claims that Donald Trump’s assumption
of the presidency pursuant to the 2016 election and
his continued occupation of that office violate his
constitutional right to equal protection of the law.
(ECF No. 1 at 1 10.) Specifically, Schwartz contends
that the Electoral College system under which
President Trump was elected violates the “one person,
one vote” principle. Id. at Tf 11 (citing Baker v. Carr,
369 U.S. 186 (1962)). Defendants contend that the

App.lOa
Constitution, particularly the Twelfth Amendment,!
“sanctions the Electoral College system.” (ECF No. 91 at 6).
The Electoral College system is specifically
provided for by the Twelfth Amendment. Gray v.
Sanders, 372 U.S. 368, 380 (1963) (“The only weighting
of votes sanctioned by the Constitution concerns
matters of representation, such as . . . the use of the
electoral college in the choice of a President”).
Schwartz does not allege any facts to support his
claim that the Electoral College system violates his
constitutional right to equal protection.2 Any proposed
amendment to Schwartz’s claim would be futile, as
his complaint is based solely on the unconstitutionality
of the Electoral College system.

1 The Twelfth Amendment states, “The electors shall meet in
their respective states and vote by ballot for President. . . and
the votes shall then be counted;—the person having the
greatest number of votes for President, shall be the President, if
such number be a majority of the whole number of electors
appointed; and if no person have such majority, then. . . the
House of Representatives shall choose immediately, by ballot,
the President. . . .”
2 Because the Court finds that Schwartz has failed to state a
claim upon which relief can be granted, it declines to address
Defendants’ contention that the Court does not have subject
matter jurisdiction over Schwartz’s claim. See ECF No. 9-1 at 3-5.

App.lla

V.

Conclusion

IT IS HEREBY ORDERED that the Defendants’
Motion to Dismiss (ECF No. 9) is GRANTED. The
Complaint (ECF No. l) is DISMISSED with prejudice.
DATED: October 10, 2017
/s/ William Q. Haves______
United States District Judge

App.l2a

NOTICE OF DOCKET ACTIVITY
(MARCH 22, 2019)
The following transaction was entered on 03/22/2019
at 3:28: 15 PM PDT and filed on 03/22/2019
Case Name: Frederic Schultz v. John Roberts, Jr., et
al
Case Number: 17-56852
Document(s): https://ecf.ca9.uscourts.gov/docsl/00903
08122 Il?uid=28f4e8d807f9332c
Docket Text:
Filed order (BARRY G. SILVERMAN, SUSAN P.
GRABER and RONALD M. GOULD) Schultz’s motion
for permission to file an untimely petition for rehearing
en banc (Docket Entry No. [37]) is granted.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. See
Fed. R. App. P. 35.
Schultz’s petition for rehearing en banc (Docket
Entry No. [36]) is denied. No further filings will be
entertained in this closed case. [11239679] (WL)
Notice will be electronically mailed to:
Mr. Daniel Everett Butcher, Assistant U.S. Attorney
Honorable William Q. Hayes, District Judge
Mr. Frederic C. Schultz
USDC, San Diego

App.l3a

NOTICE OF APPEAL OF THE ORDER OF
DISMISSAL GRANTED ON 10/10/17
(DECEMBER 8, 2017)
Plaintiff: Frederic C. Schultz
Case Name: Schultz v. Chief Justice of the United
States John G. Roberts Jr. and “President” Donald
Trump.
Case Number: 3:17-cv-0097-WQH-KSC
Court: U.S. District Court, Southern District of Cali­
fornia, USA
Judge: William Q. Hayes
Notice of Appeal to Judge Hayes granting of Defend­
ants’ Motion to Dismiss, 10/11/17
Plaintiff Frederic C. Schultz, appearing pro se,
hereby declares his NOTICE OF APPEAL to Judge
William Q. Hayes Order of dismissal granted 10/10/17
and filed 11/22/17, Case Number 3:17-cv-0097-WQHKSC, notice of which plaintiff received of by mail on
11/29/2017.
Order received 11/29/17, not before. By Mail.
Signed,
/s/ Frederic C. Schultz
Plaintiff
PO Box 634
San Diego, CA 92038

App.l4a
OPPOSITION TO MOTION TO DISMISS
(JULY 3, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
FREDERIC C. SCHULTZ, an Individual
Plaintiff,
v.
CHIEF JUSTICE OF THE UNITED STATES
JOHN G. ROBERTS, JR. and DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES
OF AMERICA,
Defendants.
Case No.: 17-CV-0097 WQH (KSC)
Date: July 2
1.

Introduction

The Court must not dismiss Plaintiff Frederic C.
Schultz’s, Esq. (hereinafter “SCHULTZ”) complaint
and motion to immediately name Hillary Clinton
President of the United States, because Defendants
Chief Justice of the U.S. Supreme Court John Roberts
(hereinafter “ROBERTS”) and wrongfully designated
President Donald Trump (hereinafter “TRUMP”) are
wrong that SCHULTZ lacks subject matter jurisdiction
for l) lacking standing 2) mootness and 3) the electoral

App.l5a
system, despite being written into the Constitution
in Article 2 in 1787, was part of a compromise, along
with allowing slavery and counting slaves heads
without allowing them to vote; to get the slaveowners
then representing the Southern states to join the
United States, and is OVERRULED and SUPER­
SEDED by the later and more important, because it
is protective of our human rights, 14th Amendment,
passed in 1868 after the Union (Northern) states with
help of escaped slaves from the South, approximately
620,000 of whom lost their lives (https://www.civilwar.
org/learn/articles/civil-war-facts) fighting for freedom
and equal rights for all citizens, no matter what state
they live in or their skin color (“race”), won the Civil
War, which grants all people “born or naturalized in
the United States” citizenship and all the “privileges
and immunities” of citizenship and “equal protection
of the laws.” As the Preamble to the Declaration of
Independence states, all women/men are created equal,
and women/men wrote the Constitution to protect
our God-given human rights, and if the government
does not do so then it is the peoples’ right and duty to
throw off that government and create another that
does protect our equal human rights. As our nation’s
founders clearly state and warn in the Preamble to
the Declaration of Independence:
“We hold these truths to be self-evident,
that all men are created equal, that they are
endowed, by their Creator, with certain un­
alienable Rights, that among these are Life,
Liberty, and the pursuit of Happiness.
That to secure these rights, Governments
are instituted among Men, deriving their
just powers from the consent of the governed,

App.l6a

That whenever any Form of Government
becomes destructive of these ends, it is the
Right of the People to alter or abolish it, and
to institute new Government, laying its foun­
dation on such principles, and organizing its
powers in such form, as to them shall seem
most likely to effect their Safety and Happi­
ness.
Prudence, indeed, will dictate that Govern­
ments long established should not be changed
for light and transient causes; and accord­
ingly all experience hath shewn, that mankind
are more disposed to suffer, while evils are
sufferable, than to right themselves by abol­
ishing the forms to which they are accus­
tomed. But when a long train of abuses and
usurpations, pursuing invariably the same
Object, evinces a design to reduce them
under absolute Despotism, it is their right,
it is their duty, to throw off such Govern­
ment, and to provide new Guards for their
future security.”
As all people are created equal, all citizens of our
nation must be granted an equal vote in our presidential
election.
Our nation’s founders, despite stealing freedom
from and enslaving those it deemed of the “Negro”
“race” and stealing the vote from non-landowners,
women, slaves, and Native Americans, still emphasized
that they were writing the Constitution to protect,
not steal, our human rights, and that the people must
revolt against any Government that steals our Godgiven human rights including. It is absurd to propose,
as Defendants ROBERTS and TRUMP, through

App.l7a

counsel, do, that all women/men are created equal,
yet some are entitled to a far greater vote than others,
not only weakening but by doing so stealing our vote,
and subverting the will of the people. Those who voted
for Hillary Clinton, including Plaintiff SCHULTZ,
received just 71% of the vote of those who voted for
Defendant TRUMP. Put alternatively, the only reason
TRUMP was declared president by the electors was that
people who voted for him received Residents of the
state of California, including Plaintiff SCHULTZ,
received just 29% of the vote of the residents of
Wyoming, as calculated by elector/population. Further­
more, due to equally egregious “winner take all” rules
passed by 48 of the 50 states, even though plaintiff
SCHULTZ voted for the candidate who won CA,
those who voted for TRUMP in CA, just like those
who voted for Clinton in states that Trump won, did
not have their votes counted at all. As our
Five times since the founding of our nation (1824,
1876, 1888, 2000, and 2016), the electoral system
detailed in the Constitution has stolen enough votes
to overturn the will of the people. Furthermore, if
she/he wins the right states, a candidate could win
the presidential election with just 23% of the votes
cast (the “popular vote”). (“How to Win the Presidency
With 23 Percent of the Popular Vote”, by Danielle
Kurtzleben, NPR, November 2, 2016http://www.npr.
org/2016/11/02/500112248/how-to-win-the-presidencywith-27-percent-of-the-popular-vote.) Given these facts,
and that SCHULTZ and the 65,844,610 people who
voted for Hillary Clinton in the presidential election
of 2016 had our votes weakened by 29%, thus stolen,
and that SCHULTZ and the other residents of
California only received less than 29% of the vote/

App.l8a
elector as residents of Wyoming, and really, everyone
but the 583,626 residents of Wyoming (only 243,679
of whom voted, and only 174,419 of whom voted for
TRUMP (https://en.wikipedia.org/wiki/United_States_
presidential_election_in_Wyoming,_2016), our least
populous state with only .2% of the population of our
nation of almost 309,000,000, and only approxi­
mately 126,000,000 of whom voted (http://www.cnn.
com/2016/11/11/politics/popular-vote-turnout-2016/
index.html), has had our votes weakened, thus stolen,
by the electoral system detailed in the Constitution,
the only way this court can uphold our human rights
that our nation’s founders formed our nation to
protect, and passed the 14th Amendment to protect,
and created courts to protect those rights from
citizens or a government which wants to steal those
rights, is for this Court to do its job and protect our
human and constitutional rights, as elucidated and
required through subsequent case law, {See: Baker v.
Carr, 369. U.S. 186 (1962) saying that the Constitu­
tion requires “One Person, One Vote”, etc.), and
uphold the 14th Amendment’s promise of “Equal
Protection of the Laws” and immediately declare Hillary
Clinton President. Just as a Federal Court in a case
of ballot stuffing is required to hold a new election
(see Donohue v. Board of Elections of State of NY,
435 F. Supp. 957 (1976)), by analogy, in this 2016
presidential election, where the vote count is accurate
but the votes were stolen by enforcing an immoral,
unconstitutional electoral system enacted to convince
slaveholders to get their states to join the nation,
enforcement of which steals our constitutional and
human rights to equal suffrage, the only remedy for
SCHULTZ, the citizen-residents of CA who received
less than 1/3 the vote of the citizens of WY, the

App.l9a
almost 66,000,000 people who voted for Hillary Clinton,
and every voter in our nation except for the 174,419
residents of Wyoming who voted for TRUMP, is for this
Court to name Hillary Clinton President of the United
States, immediately. If TRUMP appeals, then the
Supreme Court will have to decide the matter to protect
our human and constitutional rights to democracy,
by definition an equal vote per voter.
l) Plaintiff Schultz Has Standing
TO HAVE STANDING, a Plaintiff must have
sufficient connection to and potential harm from
enforcement of a law to allow the court to address his
case.
Plaintiff SCHULTZ, as a USA citizen and CA
resident who voted for Hillary Clinton in the 2016
general election, as well as all other citizens who
voted for Clinton, who on average had our votes counted
at 71% of the votes of those who voted for Defendant
TRUMP, citizens of CA who had our votes counted as
29% on average, on a population per elector basis,
and all other citizens of the United States who voted
for president in this last election, totaling 136,700,729,
(http://www.electproject.org/2016g) except for the 174,
419 WY voters who voted for TRUMP, had their votes
diluted by the electoral system giving WY voters more
say, by a wide margin, than voters in every other state
in our nation. As a USA citizen and CA resident who
voted for Clinton, but had his vote stolen by those who
are upholding the unconstitutional electoral system,
plaintiff SCHULTZ is directly impacted, and ex­
tremely harmed, by having our nation run by a person
that he and a plurality of the voters did not elect.

App.20a
Defendant ROBERTS’s and TRUMP’s attorney
states that, according to Lujan v. Defenders of Wildlife,
504 U.S. 555, 560-561, Plaintiff SCHULTZ must show
a “concrete and particularized injury in fact; 2) an
injury fairly traceable to the defendant’s alleged un­
lawful conduct and 3) the injury is likely to be redressed
by a favorable decision.
a) Plaintiff Has Suffered a Concrete and
Particularized Injury Plaintiff,
Along with all who voted for Clinton, suffers
every second that TRUMP is running our nation’s ex­
ecutive branch. In numerous ways, from destroying
weakening environmental controls, to fighting to steal
our human rights to freedom through misuse of our
criminal laws, to not investigating Russian hacking
which used illegal and treasonous means to subvert
the election to help get Trump elected, and which
threatens to allow the Russians to help him again as
the Russians are currently still hacking USA’s ballot
servers, candidate and party emails, etc., TRUMP is
destroying our nation, our environment, and our elec­
toral process. (“Officials struggle to convince Trump
that Russia remains a threat” By Sara Murray and
Dana Bash, CNN, Updated 5:56 PM ET, Wed June 28,
2017. http://www.cnn.com/2017/06/28/politics/officialsstruggle-convince-trump-russia-threat/index.html)
“Trump White House Has Taken Little Action to
Stop Next Election Hack” by KEN DILANIAN, HALLIE
JACKSON, LIKHITHA BUTCHIREDDYGARI and
GABRIELA MARTINEZ, NBC News, Politics, JUN 24
2017. http://www.nbenews.com/politics/elections/trumpwhite-house-has-taken-little-action-stop-next-election776116) TRUMP has already directed the head of the

App.21a
Environmental Protection Agency (EPA) to rescind
any environmental regulations he can (“Counseled by
Industry, Not Staff, E.P.A. Chief Is Off to a Blazing
Start,” By CORAL DAVENPORT, NY Times, JULY 1,
2017. https://www.nytime.com/2017/07/01/us/politics/
trump-epa-chief-pruitt-requlations-climate-change.
html? r=0) stating “In the four months since he took
office as the Environment Protection Agency’s admin­
istrator, Scott Pruitt has moved to undo, delay or
otherwise block more than 30 environmental rules, a
regulatory rollback larger in scope than any other
over so short a time in the agency’s 47-year history,
according to experts in environmental law.”
Furthermore, due to his current economic situa­
tion, after paying taxes to help others receive free
health care, Plaintiff SCHULTZ receives free health­
care insurance from the state of CA, which he will
lose if TRUMP gets his way and signs his healthcare
bill, which would steal health insurance from
SCHULTZ if TRUMP gets his way, potentially causing
grave injury or even death to SCHULTZ if he becomes
ill. (“Senate Health Care Bill Includes Deep Cuts to
Medicaid”, By ROBERT PEAR and THOMAS KAP­
LAN, NY TIMES, JUNE 22, 2017 https://www.nytimes.
com/2017/06/22/us/poolitics/senate-health-care-bill.
html). The “healthcare” bill Trump has proposed to
both houses of Congress would cut at least 22,000,000
from receiving free healthcare insurance, including’
SCHULTZ, if it passes. While not definite PLAINTIFF
SCHULTZ will ever need healthcare, one never knows
in life, and there is certainly a strong possibility, as
millions of healthy people get ill every year in our na­
tion, due to infection, accident, aging, etc. All people

App.22a
eventually die, almost always requiring healthcare
first.
According to ROBERTS’S AND TRUMP’S attor­
ney, “The plaintiff must generally aver an injury
peculiar to himself, as distinguished from the great
body of his fellow citizens.” Lance v. Coffman, 549
U.S. 437, 441 (2007). Lance does not apply because it
referred to a general redistricting plan, and Lance
and other plaintiffs were suing not as people who had
voted for a candidate who were being discriminated
against. In the case of SCHULTZ, only he and those
who voted for Clinton are harmed, not all voters,
which includes those who voted for TRUMP. Similarly,
Collins v. Merrill, No. 16-cv-9375 (RJS) 2016
WL7176651, at)2 (S.D.N.Y. Dec. 7, 2016) was not
decided in respect to a plaintiff who claimed to have
voted for Clinton or had her vote weakened by TRUMP
illegally accepting the oath of office from ROBERTS
who administered it, weakening and thus stealing her
vote for Clinton. Even though she received almost 3
million more votes than TRUMP, only 65,844,610 voted
for CLINTON of a total of approximately 325,000,000
who lived in our nation on election day 2016, or just
over 20% of the population, hardly the “great body of
his fellow citizens” Lance v. Coffman, 549 U.S. 437,
441 (2007), which encompasses almost 80% of the
population who did not vote for Clinton. (“Demography
of the U.S.”, wikipedia.org, http://en.wikipedia.org/
wiki/Demography_of_the_United_States) Those voters
in California who voted for Clinton, who like
PLAINTIFF SCHULTZ had our votes weakened and
thus stolen, constitute a far smaller percentage of the
USA population.

App.23a
b) Plaintiff Schultz’s Injury in Fact Was Caused
Directly by Defendant Roberts Administering
the Oath of Office to Trump, Despite the Fact
He Lost the Election, and Trump Taking the
Oath of Office Despite the Fact He Lost.
l) ROBERTS: Defendant ROBERTS, as Chief
Justice of the Supreme Court of the United States,
has taken an oath both as an attorney and as a judge
to uphold the Constitution. Swearing in TRUMP,
despite the fact that TRUMP lost the election by almost
3,000,000 votes, was a clear violation of his oath to
uphold the constitution of the United States. He should
have refused to take direction from the Electors as
they were attempting to subvert the democracy of the
United States and the will of the people as expressed
by the 65,844,610 who voted for Clinton, and specifi­
cally, they were attempting to weaken, and thus
steal, SCHULTZ’S vote. If DEFENDANT TRUMP had
then sued him to administer the oath of office of
President of the United States, then the case would
have been heard by the Supreme Court, which would
have decided it on our nation’s principle of democracy,
equal rights for all citizens, “one person, one vote”,
and supporting our human and constitutional rights
to equal protection of the laws of the United States.
They would have deemed the electoral process naming
electors, which dilutes the votes of SCHULTZ, all CA
residents, all CA residents who voted for Clinton, all
65,844,610 USA citizens who voted for CLINTON, and
the constitutional rights of all USA citizens who don’t
reside in the WY, approximately 99.8% of the popula­
tion.

App.24a
2) Trump: Defendant Trump, Knowing He Had
Lost the Election to Hillary Clinton by Almost
3,000,000 Votes, and That Accepting the Oath
of Office of President of the United States
Would Steal the Constitutional Right of Schultz
to Equal Protection of the Laws of the USA, and
His Right to an Equal Vote of Every Voter in
the 2016 Election, No Matter Where He Lived
and No Matter for Whom He Voted.
TRUMP did not HAVE to accept the decision of the
Electors who were unelected, or of the Congress who
certified the election. He CHOSE to violate my human
and others’ rights who live in all states but Wyoming,
and who voted for Hillary Clinton’s, right to have her
as our president because we elected her, by almost
3,000,000 votes. Republican Senators and House mem­
bers, who won both houses in this last election, also
benefitted from unconstitutional elections, given that
more people voted for Democrats in not only the Pre­
sidential race, but also in races for the Senate, which
received almost 6,000,000 more votes for Democrats,
yet went to the Republicans due to Democrat vote
dilution by the nature of the Senate (similar uncon­
stitutional vote dilution of those who live in less
populous states.). (“Democrats won the most votes in
the election. They should act like it. Democrats need
to be an opposition party, not a minority party.”
Updated by Ezra Klein@ezraklein, Vox, Nov 22, 2016,
9:50am EST. http://www.vox.com/polics/2016/ll/22/
13708648/democrats-won-popuiar-vote.) To preserve
the constitutional rights to equal protection of the
laws, and right to an equal vote for president of
PLAINTIFF SCHULTZ and the majority of voters who
voted for Clinton, TRUMP should have refused to

App.25a
take the oath, despite the fact that the unelected
undemocratic electors voted for him as president and
the vote-stealing Senate and gerrymandered House
approved this stealing of the rights of the almost
66,000,000 who voted for Hillary Clinton, not
DEFENDANT TRUMP.
MOOTNESS
DESPITE THE FACT THAT ROBERTS SWORE
TRUMP IN AS PRESIDENT IN VIOLATION OF
PLAINTIFF SCHULTZ’S CONSTITUTIONAL
RIGHTS, SCHULTZ’S SUIT IS NOT MOOT
BECAUSE
A)

This Court Has the Power to Name Hillary Clinton
President Because the Electoral System Is Just
Glorified Ballot Stuffing/Vote Stealing.

As the Court states in Donohue v. Board of Elec­
tions of State of NY, 435 F. Supp. 957 (E.D.N.Y.,
1976), in a case alleging ballot stuffing, “The fact of
that a national election might require judicial inter­
vention, concomitantly implicating the interests of
the entire nation, if anything, militates in favor of
interpreting the equity jurisdiction of the federal
courts to include challenges to Presidential elections.”
Thus, just because this Court did not decide in
PLAINTIFF SCHULTZ’S favor the day he filed the
case, the day before ROBERTS swore TRUMP in as
“president”, this Court can still fix its mistake now
and name Hillary Clinton President of the USA, as
SCHULTZ here moves the court to do.

App.26a
B)

It Is Established Law That Even If the Court
Does Not Fix It’s Continuing Wrong, Despite Fact
That Every Day Trump Is in Power Steals
Schultz’s and All Who Voted for Clinton’s Rights
to Have Who They Elected as President Serve as
President and Run the Executive Branch of Our
Government, This Case Is Not Moot Because There
Exists the Clear and Present Danger That Without
This Court Declaring the Electoral System
Unconstitutional for Vote Weakening and Often
Vote Stealing.

Van Wie v. Pataki, F. Supp. 2d 148 (N.D.N.Y. 2000)
is part of a long line of cases that holds that an
election case is not moot after the election, if the
issue is bound to come up again in a future case. AS
the court states in that case: “A moot case may still
be justiciable, however, if the underlying dispute is
“capable of repetition, yet evading review.”” A subse­
quent case states: “Holding that in the election context,
in the absence of a class action, there must be a
reasonable expectation that the same complaining
party would encounter the challenged action in the
future.” Fetto v. Sergi, 181 F. Supp. 2d 53 (D. Conn.
2001) The underlying case is still capable of repetition,
evading review, and SCHULTZ and millions of
Americans are subject to the same plight our nation
currently suffers, and has suffered tour times in the
past, having a president lose the election yet wrongfully
gain the office of “president”, unless this court names
the Electoral system unconstitutional, and Hillary
Clinton president because she won the election.

App.27a

C)

Plaintiff Schultz States a Plausible Claim For
Relief (Fed. R. Civ. P. 12 (b) (6))

JUST BECAUSE SOMETHING IS WRITTEN IN
THE CONSTITUTION DOES NOT MAKE IT CON­
STITUTIONAL.
In the early history of our nation, most states
only allowed landowners to vote. Only four states
allowed freed slaves to vote. No states allowed Native
Americans or women to vote. While some of these
provisions have been changed by Constitutional
amendment (I.E. honoring women’s and “Negros’“ Godgiven human right to vote) others like honoring Native
Americans and non-landowners rights to vote have been
established through case law. It is well established
case law that Americans have the right to “One Person,
One Vote.” Baker v. Carr, 369 U.S. 186 (1962).
Furthermore, there is a well established principle
that the Fourteenth Amendment’s guarantee of “equal
protection of the laws” requires not only states but
the federal govt to respect our equal rights. Bolling v.
Sharpe, 347 U.S. 497 (1954).
Finally, the Fourteenth Amendment was approved
in 1868, almost 100 years after the adoption by our
nation’s founders. The Fourteenth Amendment
promises to protect our rights to “equal protection of
the laws”, and weakening my and millions of Americans
votes who voted for Clinton and who live in states
besides Wyoming is an unconstitutional stealing of
our Human Right, protected by the constitution and
the preamble to the Declaration of Independence, to
equal suffrage, to “One Person, One Vote”. Further
proof of our nation’s intent, and yes, requirement to
honor are right to “One Person, One Vote” is the fact
that the USA on Dec. 10, 1948, in order to join the

App.28a
United Nations (UN), signed the Universal Declaration
of Human Rights (UDHR), promising to uphold our
citizens’ rights to “UNIVERSAL AND EQUAL SUF­
FRAGE”, obviously meaning honoring our right to
equal vote in the presidential election. The US is not
only stealing my and the approximately 66,000,000
Americans who voted for Hillary’s right to equal
suffrage, and the rights of all citizens of states
besides Wyoming citizens right to equal suffrage, it is
breaking the founding rules that the USA signed to
enter the UN, thus making the USA the only nation
that professes to have a democracy that allows anything
other than equal suffrage, “one person, one vote” in
presidential/parliamentary elections, but also making
our continued participation at the UN illegal. Certainly,
the USA signing the UDHR in 1948 was strong evidence
that the USA believes that EQUAL SUFFRAGE, an
EQUAL VOTE FOR ALL, is important to our human
rights, is the true definition of democracy.
And make no mistake about it, SCHULTZ’s vote as
a CA voter and as a citizen who voted for Clinton was
stolen. There is no difference between stealing votes
through drawing of districts and ballot stuffing. As
the Court states in Donohue v. Board of Elections of
NY, 435 F. Supp. 957 (E.D.N.Y. 1976): “The Supreme
Court has unequivocally stated that the Constitution
of the United States protects the right of all qualified
citizens to vote, in state as well as in federal elections.
A consistent line of decisions by this Court in cases
involving attempts to deny or restrict the right of
suffrage has made this indelibly clear. It has been
repeatedly recognized that all qualified voters have a
constitutionally protected right to vote. Reynolds v.
Simms, 377 U.S. 533, 554, 84 S. Ct. 1362, 1377-78.

App.29a

The right to vote may not be denied by alteration of
ballots, see United States v. Classic, 313 U.S. 299,
315 (1941) nor “diluted” by ballot-box stuffing, Ex
parte Siebold, 100 U.S. 371. As the Supreme Court
said in Reynolds v. Sims, supra, [377 U.S. 533, 554.],
where political districting in Alabama was challenged
under the fourteenth amendment: [T]he right of
suffrage can be denied by a debasement or dilution of
the weight of a citizen’s vote just as effectively as by
wholly prohibiting the free exercise of the franchise.
377 U.S. at. 555, 84 S. Ct. at 1378 (footnote omitted).
See Hadley v. Junior College District ofMetropolitan
Kansas City, 397 US. 50, 52, 90 S. Ct. 641, 643, 94
L.Ed.2d 45 (1970); South v. Peters, 339 U.S. 276,
279, 70 S. Ct. 641, 643, 94 L.Ed. 834 (1950) (Douglas,
J., dissenting); Hennings v. Grafton, 523 F.2d 861,
863-64 (7th Cir. 1975). Thus, while Reynolds v. Sims
was a case involving reapportionment, there appears
to be little distinction, insofar as the fourteenth
amendment is concerned, between dilution of a citizen’s
vote through malapportioned political districts and
dilution of valid ballots through votes cast by ineligible
voters.” The electoral system, relying on state bound­
aries, is simply a system of “malapportioned political
districts” banned by the Supreme Court, and is
tantamount to ballot stuffing, granting PLAINTIFF
SCHULTZ only 29% of the vote of USA citizens who live
in WY, just because he lives in CA.
Furthermore, as the Court states in Donohue v.
Board of Elections of State of NY, 455 F. Supp. 957
(E.D.N.Y. 1976), the Court, if credible allegations of
ballot stuffing were presented, would have the right
and responsibility to call for a new election. As the
Court states, “The point, however, is not that ordering

App.30a
a new Presidential election in New York State is beyond
the equity jurisdiction of the federal courts. Protecting
the integrity of elections particularly Presidential
contests is essential to a free and democratic society.
See United States v. Classic supra. [313 U.S. 299
(1941)]. It is difficult to imagine a more damaging
blow to public confidence in the electoral process than
the election of a President whose margin of victory was
provided by fraudulent registration or voting, ballot­
stuffing or other illegal means. [Emphasis added by
Plaintiff.] Indeed, entirely foreclosing injunctive relief
in the federal courts would invite attempts to influ­
ence national elections by illegal means, particularly
in those states where no statutory procedures are
available for contesting general elections. [18] Finally,
federal courts *968 in the past have not hesitated to
take jurisdiction over constitutional challenges to the
validity of local election. [19] The fact that a national
election might require judicial intervention, con­
comitantly implicating the interests of the entire na­
tion, if anything, militates in favor of interpreting the
equity jurisdiction of the federal courts to include
challenges to Presidential elections.”
In the case of Schultz v. Roberts and Trump, there
was no (as far as we now know) ballot stuffing or
other ballot tampering, (although revelations of Russian
attempts have emerged, which TRUMP has done
nothing to try to stop), but rather, the votes were
counted properly, but were weakened or strengthened
according to what state one lived in, with all citizens
receiving less of a say that USA citizens residing in
WY, because that is the least populous state. USA
citizens in Wyoming received more vote by multiples
of most of the USA population, up to 3.48 the vote of

App.31a
voters in California, based on population per elector.
48 states’ winner take all’ rules even skewed the
election in. the contest more, causing votes for TRUMP
to count at 1.4x those of us who voted for Hillary, and
voters in all states to receive more say in the
presidential election that PLAINTIFF SCHULTZ and
all other voters in California, and closely followed by
voters in NY (WY voters got 3.44x NY voters), MI (3.18),
etc. Though done under the color of law, this process
weakened, and thus stole our votes the same as if
Trump stuffed ballots with 6,000,000 fake ballots.
They stole our votes. This Court can, and should, still
reverse the election and name Hillary Clinton president,
as she won by almost 3 million votes, and only is not
serving as president now because of vote stealing
under color of law.
DEFENDANT ROBERTS’ AND TRUMP’S ARGU­
MENT THAT THE CONSTITUTION ITSELF “SANC­
TIONS” “WEIGHTED VOTING” IS NOT IN DISPUTE.
However, such “weighing” or vote stealing is over­
ruled by the 14th Amendment, which according to Boil­
ing v. Sharpe, 347 U.S. 497 (1954) holds the federal
govt to the same equal protection requirements as state
governments. This court must protect our rights, by
keeping my claim for equal protection alive, not dis­
missing Plaintiffs complaint, and not restricting my
right to amend. The Court can, and should also, name
Hillary Clinton president immediately, as she won
the election by almost 3 million votes, including that
of PLAINTIFF SCHULTZ, subverting the will of the
people, and forcing someone on us as “president”,
TRUMP, who we did not elect and who endangers our
lives every second.

App.32a

Respectfully submitted,

/s/ Frederic C. Schultz
Dated: 7/3/17

App.33a
MEMORANDUM OF POINTS AND
AUTHORITIES IN SUPPORT OF
DEFENDANT’S MOTION TO DISMISS
(JUNE 13, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
FREDERIC C. SCHULTZ,
Plaintiff,
v.
CHIEF JUSTICE OF THE UNITED STATES
JOHN G. ROBERTS, JR. and DONALD J. TRUMP,
President of the United States of America,
Defendants.
Case No.: 17-CV-0097 WQH (KSC)
Date: July 17, 2017
[No Oral Argument Unless Requested by the Court]
Before: Hon. William Q. HAYES,
United States District Judge.
I.

Introduction

Plaintiffs complaint seeks to enjoin Chief Justice
John Roberts from administering the oath of office to
president-elect Donald Trump. Plaintiffs premise is
that the Electoral College (which is provided for by
Article II, section 1 and the Twelfth Amendment to the

App.34a
United States Constitution) is an unconstitutional viola­
tion of the “one person, one vote” principle contained
in the Fifth and Fourteenth Amendments. Plaintiffs
complaint also seeks a declaration to this same
effect.
The Court should dismiss this case for lack of
subject matter jurisdiction. First, Plaintiff lacks stand­
ing to challenge the Electoral College because he has
not suffered a concrete and particularized injury at
the hands of the Electoral College in general, or Chief
Justice Roberts and President Trump in particular.
Second, Plaintiffs request for an injunction prohibiting
the inauguration from proceeding is moot because
President Trump took the oath of office on January
20, 2017. (Plaintiff did not file his complaint until
January 19, 2017, and did not serve it until April 17,
2017.)
The Court should also dismiss Plaintiffs complaint
for failure to state a claim because the Electoral
College itself is part of the Constitution and, therefore,
cannot be unconstitutional.
In sum, the Court lacks subject matter jurisdiction
over Plaintiffs complaint, which fails to state a claim
on the merits in any event. The Court should therefore
dismiss Plaintiffs complaint without leave to amend.
II. Argument
Plaintiff filed his complaint on January 19, 2017.
Dkt. No. 1. His complaint alleges that the Electoral
College results in a dilution of votes that violates the
“one person, one vote” principle embodied in the Fifth
and Fourteenth Amendments. Id.,
3, 7-11. As a
remedy, Plaintiff seeks (l) “an order permanently

App.35a

enjoining CHIEF JUSTICE ROBERTS from swearing
in Donald TRUMP as President,” id. at 8 (Prayer for
Relief U 4), and (2) “a judicial declaration that the
Electoral system and process laid out in the TWELFTH
AMENDMENT” violates “the FIFTH and FOUR­
TEENTH AMENDMENTS protections of equal pro­
tection under the laws.” Id. (Prayer for Relief, \ 2).
The Court should grant neither.
A. The Court Lacks Subject Matter jurisdiction
Over Plaintiffs Complaint (Fed. R. Civ. P.
12(b)(1))
1. Plaintiff Lacks Standing
The existence of Article III standing is a threshold
determination concerning “whether the litigant is
entitled to have the court decide the merits of the
dispute or of particular issues.” Warth v. Seldin, 422
U.S. 490, 498 (1975). “In this way, the law of Article
III standing . . . serves to prevent the judicial process
from being used to usurp the powers of the political
branches.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547 (2016).
The plaintiff bears “the burden of establishing
[the] existence” of standing because federal courts
should presume they lack jurisdiction “unless the
contrary appears affirmatively from the record.” Steel
Co. v. Citizens for. a Better Env’t, 523 U.S. 83, 104
(1998). The “irreducible constitutional minimum” of
standing consists of three elements: (l) a concrete
and particularized injury in fact; (2) an injury fairly
traceable to the defendant’s alleged unlawful conduct;
and (3) the injury is likely to be redressed by a
favorable decision. Lujan v. Defs. of Wildlife, 504

App.36a

U.S. 555, 560-61 (1992). If any of these elements is
not satisfied, then a federal court cannot invoke its
jurisdiction and must dismiss the case. See Warth,
422 U.S. at 499.
a. Plaintiff Has Not Suffered a Concrete
and Particularized Injury
An injury in fact must be (l) concrete and
particularized, and (2) actual or imminent, not
conjectural or hypothetical. Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167,
181 (2000). To allege a “concrete and particularized”
injury, a plaintiff must show that he “personally has
suffered some actual or threatened injury as a result
of the putatively illegal conduct of the defendant.”
Valley Forge Christian College v. Americans United
for Separation of Church & State, Inc., 454 U.S. 464,
472 (1982). An injury that a plaintiff “suffers in some
indefinite way in common with people generally” does
not suffice. DaimlerChrysler Corp. v. Cuno, 547 U.S.
332, 344 (2006). “The plaintiff must generally aver
an injury peculiar to himself, as distinguished from
the great body of his fellow citizens.” Lance v. Coffman,
549 U.S. 437, 441 (2007).
Plaintiff here alleges that he is one of almost
66,000,000 voters who had their votes in the 2016
presidential election diluted by the Electoral College.
See Complaint, f f 7-8. This allegation falls far short
of what is necessary to establish the constitutionally
required “concrete and particularized” injury—any
and all of the approximately 66,000,000 other voters
can allege the same injury. Confirming this point,
Plaintiffs complaint alleges a common injury on behalf
of each of the approximately 66,000,000 voters, thereby

App.37a
admitting that his injury is not concrete and
particularized. Id.,
8-14. The Court therefore
should dismiss Plaintiffs complaint for lack of standing.
See Collins v. Merrill, No. 16-cv-9375 (RJS), 2016 WL
7176651, at *2 (S.D.N.Y Dec. 7, 2016) (holding that
plaintiff lacked standing to seek injunctive relief
barring defendants from certifying the results of the
2016 Electoral College; “the complaint is premised
entirely on alleged injuries that Plaintiff shares with
the general voting population. ...”).
b. Even If the Plaintiff Suffered an Injury
in Fact, President Trump and Chief
Justice Roberts Did Not Cause the
Injury
To establish causation, a plaintiff must show
that the alleged injury is fairly traceable to the
challenged action of the defendant, and not the result
of the action of a third party not before the court.
Pritikin v. Dep’t ofEnergy, 254 F.3d 791, 797 (9th Cir.
2001). Plaintiffs challenge to the Electoral College
names Chief Justice Roberts and President Trump as
defendants. But neither Chief Justice Roberts nor
President Trump caused Plaintiffs alleged injury—
they do not have any authority over the Electoral
College or the ability to control its electors. Instead,
and as alleged in Plaintiffs complaint, their only role
in the process was to perform the purely ministerial
functions of administering and receiving the oath of
office. Complaint, Tflf 2, 10-12, 16-18. Plaintiff therefore
lacks standing. See Gordon v. Biden, 606 F. Supp. 2d
11, 14 (D.D.C. 2009) (dismissing electoral college suit
against the Vice President for lack of standing; “Because
Gordon’s alleged injury is not ‘fairly traceable’ to the
Vice President’s actions, which in fact are purely

App.38a
ministerial, but rather is attributable to the actions
of third-party states and state officials, he fails to
satisfy the causation element of standing”), affd, 364
F. App’x 651 (D.C. Cir. 2010); Perkel v. United
States, No. COO-4288 SI, 2001 WL 58964, at *2 (N.D.
Cal. Jan. 9, 2001) (dismissing “one man one vote”
challenge to the Electoral College brought against the
United States for lack of standing; “[The] injury is
the alleged nullification of [the plaintiffs] vote, cast
in Missouri, by the operation of the electoral college
in Missouri.”).
2. Plaintiffs Request for Injunctive Relief Is
Moot
“Article III requires that a live controversy persist
throughout all stages of the litigation” and not “simply
at the date the action is initiated.” McCullough v.
Graber, 726 F.3d 1057, 1059 (9th Cir. 2013). “[I]f an
event occurs during the pendency of the [case] that
renders the case moot,” the Court lacks jurisdiction
and must dismiss the case. See Ctr. for Biological
Diversity v. Lohn, 511 F.3d 960, 963 (9th Cir. 2007).
Plaintiff filed his complaint on January 19, 2017,
the day before the January 20, 2017 inauguration of
President Trump. See Complaint, f 12 (referring to
“the Presidential Inauguration scheduled for 12:00
P.M. tomorrow in Washington, D.C.”). Plaintiff did
not serve his complaint on anyone until April 17,
2017, almost four months after the inauguration took
place. See Docket Nos. 4-8. Plaintiffs request for an
injunction against the January 20, 2017 inauguration
is therefore moot. See Center for Biological Diversity,
511 F.3d at 964 (holding that request for declaration
that agency policy was unlawful was moot because the

App.39a
challenged activity, i.e., use of the policy to determine
whether to list the Southern Resident killer whale as
an endangered species, had “evaporated or disappeared”
once agency issued a final rule listing the whale as
an endangered species).
B. Plaintiffs Complaint Does Not State a Plausible
Claim for Relief (Fed. R. Civ. P. 12(b)(6))
Plaintiffs request for declaratory relief makes
the facially implausible argument that the Twelfth
Amendment of the Constitution violates the Fifth and
Fourteenth Amendments of this same Constitution. See
Complaint at 8 (Prayer for Relief, f 4) (requesting
that the Court rule that the “TWELFTH AMEND­
MENT [is] a violation of our rights to equal votes,
part of the FIFTH and FOURTEENTH AMEND­
MENT’S protections of equal protection under the
laws. ... ”). As the Supreme Court has recognized,
however, the Constitution itself sanctions the Electoral
College system and any “weighing of votes” that results
from it. See Gray v. Sanders, 372 U.S. 368, 380 (“The
only weighing of votes sanctioned by the Constitution
concerns matters of representation, such as allocation
of Senators irrespective of population and the use of
the electoral college in the choice of a President.”);
see also New v. Pelosi, Case no. 08 Civ. 9055 (AKH),
2008 WL 4755414 (S.D.N.Y., Oct. 29, 2008) (“The
Supreme Court has consistently declined to extend
the principle of ‘one person, one vote’ to the electoral
college.”) (citing Gray), affd, 374 F. App’x 158 (2d
Cir. 2010).
The court in New cogently and succinctly explained
the illogic in Plaintiffs allegation that part of the
Constitution is unconstitutional:

App.40a

Ultimately, this Court lacks the power to
grant the relief sought because the Court,
as interpreter and enforcer of the words of
the Constitution, is not empowered to strike
the document’s text on the basis that it is
offensive to itself or is in some way inter­
nally inconsistent. In other words, the elec­
toral college cannot be questioned constitu­
tionally because it is established by the
Constitution.
New, 2008 WL 4755414, at *2 (internal quotation
omitted) (citing Porter v. Bowen, 518 F.3d 1181, 118384 (9th Cir. 2008) (Kleinfeld, J., dissenting from
denial of reh’g en banc) (“Whether the electoral college
and winner-take-all casting of electoral votes is a
good idea or not has no bearing on the law. Article II,
section 1 and the Twelfth Amendment are the Con­
stitution we have.”).
In sum, the Electoral College is part of the
Constitution. The only remedy for the injury alleged
in Plaintiffs complaint is a constitutional amendment.
The Court therefore should dismiss Plaintiffs complaint
for failure to state a claim.
III. Conclusion
For the foregoing reasons, Defendants respectfully
request that the Court dismiss Plaintiffs complaint
without leave to amend.
Respectfully submitted,

Alana W. Robinson
Acting United States Attorney

App.41a

/s/ Daniel E. Butcher
Assistant United States Attorney
Attorneys for Defendants
Dated: June 13, 2017

App.42a
NOTICE OF MOTION AND MOTION TO DISMISS
(JUNE 13, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
FREDERIC C. SCHULTZ,
Plaintiff,
v.
CHIEF JUSTICE OF THE UNITED STATES
JOHN G. ROBERTS, JR. and DONALD J. TRUMP,
President of the United States of America,
Defendants.
Case No.: 17-CV-0097 WQH (KSC)
Date: July 17, 2017
[No Oral Argument Unless Requested by the Court]
Before: Hon. William Q. HAYES,
United States District Judge.
TO FREDERICK C. SCHULTZ:
PLEASE TAKE NOTICE that on July 17, 2017, or
as soon thereafter as counsel may be heard, in the
Courtroom of the Honorable William Q. Hayes, Defend­
ant, through their attorneys of record, Alana W.
Robinson, Acting United States Attorney, and Daniel E.
Butcher, Assistant U.S. Attorney, will and hereby
does move this Court to dismiss Plaintiffs complaint

App.43a

pursuant to Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6). A memorandum in support of this motion
is attached.

Respectfully submitted,
Alana W. Robinson
Acting United States Attorney
/s/ Daniel E. Butcher
Assistant United States Attorney
Attorneys for Defendants
Dated: June 13, 2017

App.44a
COMPLAINT FOR DECLARATORY AND INJUNC­
TIVE RELIEF TO PREVENT IRREPARABLE
VIOLATION OF THE GUARANTY OF EQUAL
PROTECTION OF THE LAWS UNDER THE FIFTH
AND FOURTEENTH AMENDMENTS, AND OF
THE PRINCIPLE OF “ONE PERSON, ONE VOTE”
(JANUARY 19, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
FREDERIC C. SCHULTZ, an Individual,
Plaintiff,
v.
CHIEF JUSTICE OF THE UNITED STATES
JOHN G. ROBERTS, JR. and DONALD J. TRUMP,
President of the United States of America,
Defendants.
Case No.: 17-CV-0097 WQH KSC
Plaintiff FREDERIC C. SCHULTZ (“SCHULTZ”)
alleges as follows:
Related Cases:
1. SCHULTZ has no other Civil Cases in this or
any other federal court.

App.45a

The Parties
1. SCHULTZ is a resident of the State of Cali­
fornia, and as such, cast a vote in, the November 8
2016 Presidential election for Democratic candidate
Hillary Clinton.
2. Defendants, Chief Justice of the United States
John G. ROBERTS, Jr. and Donald J. TRUMP,
“President-Elect” of the United states, are scheduled
on Friday Jan. 20th at 12:00 P.M. E.S.T. to respectively
administer and take the presidential oath of office for
Mr. TRUMP to become president of the United States
of America, AS opposed to Sec. Hillary Clinton, who
the people elected.
3. Unless this Court issues the relief sought
herein, Mr. TRUMP will become president in violation
of the guaranty of SCHULTZ’s rights to equal protection
of the laws under the Fifth Amendment of the United
States Constitution, see, Bolling v. Sharpe, 347 U.S.
497 (1954), and the fundamental principle of “one
[person], one vote”, enunciated by the United States
Supreme Court in Baker v. Carr; 369 U.S. 186 (1962).
Bolling held that the federal government is subject to
the same equal protection requirements as the state
governments, even though the equal protection clause
of the Fourteenth Amendment does not mention the
federal government. As the Court said in Weinberger
v. Wiesenfeld, 420 U.S. 636 (1975), “This Court’s
approach to Fifth Amendment equal protection claims
[covering the federal government] has been precisely
the same as to equal protection claims under the
Fourteenth Amendment.” Therefore, our right to vote
in federal elections is protected by the same “One
Person, One Vote” rule established in state elections.

App.46a
Jurisdiction and Venue
4. This Court has subject matter jurisdiction over
this matter under Title 28 U.S.C. § 1331 (federal
question jurisdiction), § 2201 (authorizing declaratory
relief), and § 2202 (authorizing injunctive relief).
5. Venue is proper in this Court under Title 28
U.S.C. § 1391(b).
Injunctive Relief Allegations
6. SCHULTZ hereby incorporates each of the
allegations contained in Paragraphs 1 through 5 above,
and incorporates them as though fully set forth here.
7. The final vote tally, according to CNN, in the
general election held on Nov. 8 is Hillary Clinton
with 65,844,954 (48.2%) compared to Donald TRUMP
receiving 62,979,879 (46.1%) votes, a difference of
2,865,075 votes, or 2.1% of total votes cast.
8. Despite this historic margin of votes in favor
of the projected loser of the Presidential election, the
Electors awarded the presidential election to Donald
Trump by a margin of 306 to 232 pledged Electors,
and 304 to 227 actual Elector votes. Therefore,
compared to the actual number of votes cast, people
who voted for Hillary Clinton had our votes diluted
by over 2.1% to award Donald TRUMP the election. In
other words, Clinton voters’ votes were counted at
under 98% the weight of those who voted for Trump.
Compared to the actual Electoral votes cast, I and all
other people who voted for Clinton had our votes diluted
by approximately 29%. Put another way, SCHULTZ’s
vote and everyone else who voted for Clinton had our
votes counted 71% as much as those who voted for
TRUMP. This result was caused by a combination of

App.47a
vote dilution by state compared to voters in WY who
get the lowest number of voters per elector in the
nation, and by state “Winner take All” (WTA) rules
which further skew the results from reality. Because
the number of voters per Elector varies so much state
to state, voters in CA including SCHULTZ only get
29% of the vote of voters in WY according to the 2010
Census, which applies in this and the next presidential
election. Alternatively put, WY voters get their votes
per Elector counted almost 3.5x CA voters. (Population
has changed since to even further dilute votes from
the time of the 2010 census.) Voters in all other
states get varying degrees less people per elector
than WY, with most people in the nation getting
between 30% and 40% of the vote of WY voters, ranging
up to voters in Washington, D.C. who get 97% of the
vote of a WY voter. WY has only 583,626 residents in
a nation of 308,745,538, or below .2% of the nation’s
population, with 194,542 people voting per elector.
Therefore, over 99.8% of the voters in the U.S.A. have
our votes diluted compared to, and by, WY voters,
Voters per elector by state range from 194,542 in WY
to 677,344 voters per elector in CA; 668,211 voters
per elector in NY; 661,728 per elector in TX, etc.
Furthermore, every state but ME and NB, which
combined have under 1% of the nation’s population,
have “WTA” rules which completely wipe out the votes
of anyone who votes in a state for the candidate who
doesn’t win a plurality of the votes in that state,
stealing their right to vote completely
9. The amount of dilution per Clinton voter com­
pared to Trump voter depends on how one calculates.
As 85,844,954 of USA voters including SCHULTZ
voted for Clinton, but Clinton only received pledged

App.48a
232 Electors, and 227 actual Elector votes, the actual
number of Clinton votes per Elector was almost
290,066. As 62,979,879 people voted for TRUMP, but he
received 306 pledged Elector and 304 actual Elector
votes, the number of Trump votes per Elector was
almost 207,171 per elector. Therefore, in the Elector
vote, the vote which counts, people who voted for
Clinton as SCHULTZ did had our votes counted at the
rate of just over 71% the value of the votes of citizens
who voted for TRUMP.
10. The Fifth Amendment guarantees to all
citizens the equal protection of federal laws, and is
more explicitly protective against unfairness than
the Due Process Clause of the Fifth and Fourteenth
Amendments. Bolling v. Sharpe, 347 U.S. 497, 499.
Thus, the Fifth Amendment creates a fundamental
right in each citizen and a corresponding obligation
on the part of all government entities to treat federal
election voters fairly. Counting each Clinton vote,
including SCHULTZ’s Clinton vote, as only equal to
approximately 71% the value of the vote of a citizen
who voted for TRUMP is fundamentally unjust and
immoral, effectively stealing our vote and denying
the majority of American voters our choice for president.
Such vote dilution and denying of our choice for our
leader serves no legitimate, or certainly compelling,
government interest. Therefore, the action that Chief
Justice ROBERTS and “President Elect” TRUMP are
certain to take on Jan. 20, i.e. JUSTICE ROBERTS
swearing in TRUMP to be President of the United
States, violates SCHULTZ’s right and the rights of
all other citizens who voted for Clinton, under the
Fifth Amendment’s and Fourteenth Amendment’s

App.49a

guarantees of equal protection of the laws pertaining
to his vote for President.
11. In addition, ROBERTS’ and TRUMP’s antic­
ipated action violates the fundamental, inviolate
principle set forth by the United States Supreme Court
in Baker v. Carr, 369 U.S. 186, of “one person, one
vote.” There is no precedent supporting an election
process that for all intents and purposes rests on a
principle of “one person, .71 vote.” Actually, SCHULTZ
and the 65,844,954 who voted for Clinton had our votes
counted at 71% that of those citizens who voted for
TRUMP, and alternatively, the 62,979,879 TRUMP
voters had their votes counted at a rate over 1.4x
that of those who voted for Clinton. These numbers
are far from the “one person, one vote” standard
promised in Baker, and by our Constitution’s guarantee
of equal protection under the laws, including the
voting laws.
12. This Federal Court has the power to intervene
to Enjoin and Prevent Chief Justice of the USA John
ROBERTS from swearing in “President Elect” Trump at
the Presidential Inauguration scheduled for 12:00
P.M. tomorrow in Washington, D.C. and to require that
the ballots cast by the people of the USA be counted
equally per voter, and to declare Sec. Hillary Clinton
the winner based on the fact she received almost 3
million more votes than TRUMP. Donohue v. Board of
Elections of State of NY, 435 F. Supp. 957 (E.D.N.Y.
1976) RULED that courts have the right to call for
new presidential elections in cases of vote dilution by
fraud. Plaintiff SCHULTZ and all Clinton voters had
their votes diluted compared to those of TRUMP voters,
and Plaintiff SCHULTZ and ALL CITIZENS of all
states other than WY have had their votes diluted by

App.50a
the voters of WY due to a provision of the Constitution
that was only adopted to encourage the Slave States
from staying in the newly formed USA. Furthermore,
Plaintiff SCHULTZ is not calling for a new election,
but rather just that his and all citizens of the United
States’ votes be counted equally, and that his and all
citizens who voted for Clinton have their votes counted
equally to those who voted for Trump, which they were
not by over 40% vote dilution caused by the Electoral
system and vote proscribed in the TWELFTH
AMENDMENT of the Constitution.
13. Furthermore, though not literally binding
on this Court, the United States, along with all the
United Nations of the world, is a signatory to the
Universal Declaration of Human Rights (UDHR),
proclaimed by the United Nations General Assembly
(General Assembly resolution 217A) in Paris, France,
on Dec. 10, 1948, as a common “standard of achieve­
ment” for all people and nations of the world, famously
advocated for by Eleanor Roosevelt and the newly
free people of the world, after the horrors of Nazi
dictatorship caused mass slavery; torture, murder and
world war, to prevent anyone from committing such evil
ever again, pushing the earth and humanity to the
edge of destruction and extinction forever.
Article 21 plainly, powerfully states:
“(l) Everyone has the right to take part in the
government of his country, directly or through
freely chosen representatives.
(2) Everyone has the right of equal access to
public service in his country.
(3) The will of the people shall be the basis of
the authority of government; this will shall

App.51a
be expressed in periodic and genuine elec­
tions which shall be by universal and equal
suffrage and shall be held by secret vote or by
equivalent free voting procedures.” (Empha­
sis added.)
This Court is the only body which can uphold these
basic guaranteed human rights of the citizens who
voted for Clinton, and really of all the people of the
United States of America, no matter in which state
we live or for which candidate we voted. SCHULTZ
and the people of our nation have a right to equal
suffrage, meaning, obviously, “One Person, One Vote”
and we expect this court to uphold our human rights
to an equal vote for president, as a right in and of
itself and also as a means to effect all the other
human rights with which we are born and which the
UDHR, and our great nation’s Constitution, were
written to protect, today and for all posterity.
13. Injunctive relief is necessary because the
process by which the Electors elected TRUMP as the
President is irreconcilable with SCHULTZ’s rights—
and those of approximately 66 million other citizens
who voted for Clinton—under the Equal Protection
Clause and Baker v. Carr. The Court must uphold
SCHULTZ’s and the majority of voters’ fundamental
rights to “One Person, One Vote,” count our votes
equally, and determine Hillary Clinton to be the winner
over Donald TRUMP by a margin of 2,865,075 votes,
and the next president of the United States.
14. SCHULTZ’s and the other approximately 66
million voters who voted for Clinton’s fundamental
right to have his vote counted equally with a Trump
voter’s supersedes TRUMP’s interest in being sworn
in, or the government’s interest in having CHIEF

App.52a

JUSTICE ROBERTS swear him in, for the reasons set
forth above in Paragraphs 9-12. The harm CHIEF
JUSTICE ROBERTS’ and TRUMP’s actions on January
20 would cause SCHULTZ and those similarly situated,
is substantial and irreparable, and SCHULTZ lacks
any adequate remedy in law. Accordingly, an injunction
prohibiting JUSTICE ROBERTS from swearing in
TRUMP on January 20 at 9:00 A.M. Pacific Time, 12:00
P.M. Eastern Time, is necessary and appropriate.
DECLARATORY RELIEF ALLEGATIONS
15. SCHULTZ hereby incorporates each of the
allegations contained in Paragraphs 1 through 14
above, and incorporates them as though fully set forth
here.
16. An actual and substantial controversy now
exists between SCHULTZ and “PRESIDENT ELECT”
TRUMP and CHIEF JUSTICE ROBERTS as to their
respective rights and duties. SCHULTZ contends the
SWEARING IN PROCESS that TRUMP and CHIEF
JUSTICE ROBERTS will engage in on January 20,
2017 will irreparably injure SCHULTZ by counting his
vote as 71% of that of the vote of someone who voted
for TRUMP, and by making TRUMP President when he
lost the election when all the votes are added up, and
counted equally, without any watering down based on
location or his choice of candidate.
17. This dispute is presently justiciable because
CHIEF JUSTICE John ROBERTS is scheduled to
swear in Donald TRUMP as the 45th President despite
the fact that he lost the election to Hillary Clinton by
2,865,075 votes, or 2.1% of total votes cast by United
States citizens on Nov. 8, 2016, thereby causing
substantial and cognizable injury to SCHULTZ.

App.53a
18. CHIEF JUSTICE ROBERTS’ and TRUMP’s
anticipated action of swearing in TRUMP despite his
losing the election has substantially affected and will
directly, substantially and adversely affect SCHULTZ.
Therefore, a judicial determination of the parties’
respective rights and obligations as to this controversy
is necessary and appropriate at this time.
Prayer for Relief
Wherefore, SCHULTZ prays for judgment as
follows:
1. For a judicial declaration that CHIEF JUSTICE
ROBERTS’ and Donald TRUMP’s anticipated action on
January 20, 2017 will substantially, adversely, and
irreparably injure SCHULTZ and all other Clinton
voters, in violation of SCHULTZ’s rights under the
FIFTH and FOURTEENTH AMENDMENTS of the
U.S.A. CONSTITUTION, and will derogate the
fundamental principle of “One Person, One Vote.”
2. For a judicial declaration that the Electoral
system and process laid out in the TWELFTH AMEND­
MENT, part of a compromise with the slave-holding
states, weakened and stole the right to vote of a
majority of Americans, in this election, in 4 prior
elections since the founding of our nation, and is
bound to do so many times in the future unless this
Court rules this TWELFTH AMENDMENT a violation
of our rights to equal votes, part of the FIFTH and
FOURTEENTH AMENDMENT’S protections of equal
protection under the laws, and that the only way to
satisfy our rights to “One Person, One Vote” is for the
Court to order that our votes be counted equally, and
to name Hillary Clinton the next President of the
United States of America, and to then instruct CHIEF

App.54a

JUSTICE ROBERTS to swear in Hillary Clinton as
president as she won the election by almost 3 million
votes, and not Donald TRUMP.
3. For a judicial declaration that under long­
standing principles of statutory and Constitutional
construction, SCHULTZ’s rights supersede the interests
of TRUMP’s or CHIEF JUSTICE ROBERT’S or the
Electors in following the procedure for electing our
45th President.
4. For an order permanently enjoining CHIEF
JUSTICE ROBERTS from swearing in Donald TRUMP
as President, as doing so would weaken SCHULTZ’s
vote, and those of the 66 million. Americans who voted
for Hillary Clinton, to less than One, to 71% of a
citizen’s who voted for TRUMP, based solely on his
geographical location in our nation and for whom he
voted, giving citizens who voted for TRUMP over 1.4x
the vote of citizens who voted for Sec. Hillary Clinton.
5. For a Judicial Declaration that as Hillary
Clinton beat Donald TRUMP by almost 3 million votes
in the final tally, she won the Presidential Election of
2016, and Chief Justice of the US ROBERTS shall, as
soon as practicable but within one month of today,
swear in Hillary Rodham Clinton as the 45th President
of the USA, and not Donald TRUMP as he lost the
election to her on Nov. 8, 2016, and that current
President Barack Obama shall stay president until
such date.
6. For all such other relief as this Court deems
just and proper.

App.55a

Respectfully submitted,

/s/ Frederic C. Schultz
Plaintiff, Pro Se
P.O. Box 634
San Diego, CA 92038
(620) 288-6769
Dated: January 19, 2017

App.56a

CIVIL COVER SHEET
(JANUARY 19, 2017)
Case No.: 17 CV 0097 WQH KSC
The JS 44 civil cover sheet and the information contain­
ed herein neither replace nor supplement the filing
and service of pleadings or other papers as required
by law, except as provided by local rules of court.
This form, approved by the Judicial Conference of the
United States in September 1974, is required for the
use of the Clerk of Court for the purpose of initiating
the civil docket sheet.
I.
(a) PLAINTIFFS: Frederic C. Schultz
DEFENDANTS: Chief justice of the United
States John G. Roberts, Jr. and Donald J. Trump,
President Elect
(b) County of Residence of First Listed Plaintiff
San Diego, CA
County of Residence of First Listed Defendant
Washington, DC
II.

Basic of Jurisdiction
•

Federal Question

IV. Nature of the Suit
•

Civil Rights—441 Voting

App.57a

V.

Origin
•

Original Proceeding

VI. Cause of Action
Cite the U.S. Civil Statute under which you are
filing (Do not cite jurisdictional statutes unless
diversity)
•

Equal Protection guaranty of 5th and 14th
Amendments

Brief Description of Cause: Defendants will Dilute
and Deny my Right to an Equal Vote Unless This
Court Declares Hillary Clinton President of USA.
VII. Requested In Complaint:
CHECK YES if you demand in complaint
•

Jury Demand: No
/s/ Frederic C. Schultz
Signature of Attorney of Record

Date: 01/19/2017

App.58a

APPELLANT PETITION FOR REHEARING
(JANUARY 11, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FREDERIC C. SCHULTZ, ESQ., an Individual,
Plain tiff-Appellan t,
v.
CHIEF JUSTICE OF THE UNITED STATES
JOHN G. ROBERTS, JR., ESQ and
DONALD J. TRUMP, “PRESIDENT” OF THE
UNITED STATES OF AMERICA,
Defendant-Appellees.
Case No.:17-56852
D.C. Case No: 17-CV-0097-WQH-KSC

Summary of Argument
Pro Se Appellant Frederic C. Schultz, Esq. (here­
inafter “Schultz”), on behalf of all California voters
who on average had. our votes counted at the rate of
29% of those of citizens of Wyoming, and at a far
lower rate than those of citizens in less populous
states overall, and on behalf of all CA and USA voters
who voted for Hillary Clinton, who had our votes
counted on average only 71% of those of citizens who
voted for Donald Trump, HEREBY REQUESTS that

App.59a
the 9th Circuit Court of Appeals rehear ray request
not to have my case dismissed for failure to state a
claim simply because the US Constitution in Article
12 provides for an electoral “college” system.
As SCHULTZ stated in his briefs submitted to this
court in May and August (attached), he and all citizens
of the United States, including residents of the state
of California and of every other state, have the
Constitutional and Human Rights to have our votes
counted equally as every other citizen of the United
States. The 14th and 5th Amendments of the Consti­
tution, as well as the 13th and 15th Amendments, as
explained in the previous briefs, both appeals briefs
and those going back to Jan. 19, 2017, when Schultz
initially filed his appeal, as well as, namely, Amend­
ment 9, which states: “Rights Retained by the People”
“The enumeration in the Constitution, of certain
rights, shall not be construed to deny or disparage
others retained by the people.” These and other
provisions are meant to protect our rights as citizens.
Most importantly, the Constitution provides for
3 branches of government, Judiciary, Legislative, and
Executive Branch. Our nation founders provided a
Bill of Rights in the Constitution to protect our Godgiven rights, so that they never be up for a vote.
Central to those rights is the right to an equal vote
for government. And central to those rights is Courts
and Judges being willing to stand up and protect
those rights when called to. Chief Justice John Roberts,
and every judge, has a responsibility to not just be a
“rubber stamp”, but to stand up for our rights as
citizens whenever given the opportunity. He took an
oath to do so. By swearing in Defendant TRUMP as
president, despite the fact he lost the election by

App.60a
almost 3 million votes, by a vote of 66 to 63 million
votes, ROBERTS violated his oath of office to protect
and defend our human rights with the Constitution
of the United States. Instead, DEFENDANT JUDGE
ROBERTS violated his oath to protect us, and
DEFENDANT “PRESIDENT” TRUMP violated our
rights by accepting such oath wrongfully, when he
had lost the election by almost 3 million votes.
Our nation’s founders, despite depriving the vote
to non-landowners, non-“white” people who were slaves,
and women still deeply believed in the concept of
representative democracy. That is why they founded
our nation, to protect us from a tyrannous king who
only had the support of a small percentage of the
population. They would have been horrified by the
concept that a person would be deemed “president”
by an electoral system which they established in order
to enforce, not steal, the will of the people, would be
used to put in power a person who had lost the election
by almost 3 million votes. They provided for the
electoral system, as Hamilton said in the Federalist
Papers, only in an emergency to save us for a tyrant,
which they obviously failed to do in this last election.
They never intended for the electoral system to be
used to steal our votes.
As the 14th Amendment eloquently states in Sec­
tion 2: “The basis of representation therein shall be
reduced in the proportion which the number of such
male citizens shall bear to the whole number of male
citizens twenty-one years of age in such State”. This
passage clearly shows they believed that votes for the
president must be counted equally.” The founders
obviously from this, and the whole meaning of the
Constitution, the Declaration of Independence, and

App.61a
the very reason they founded the nation was to grant
us our human rights to a democracy. They created a
representative democracy as an attempt to represent
the will of the people, however narrowly they defined
it at the time, not to subvert it. As SCHULTZ pointed
out in his previous briefs, a person can now be “elected”
president by the electoral “college” who only wins
23% of the “popular” vote, or what every nation that
considers itself a democracy would call it, the vote.
(“How to win the presidency with 23% of the Popular
Vote”—NPR 11/2/16. https://www.npr.org/2016/ll/02/
500112248/how-to-win-the-presidency-with-27-percentof-the-popular-vote) Furthermore, although not alleged
in the facts of this case, even those citizens of the
United States who are not allowed to vote for president,
namely citizens of Puerto Rico, Guam, and the US
Virgin Islands, have the right to have their votes
counted, almost 3 million votes. Puerto Rico has about
2,700,000 citizens who could not vote for president,
just over only 5,000 voted for DEFENDANT TRUMP
in the March 2016 Primary. Undoubtedly, they would
have voted for Clinton too.
Furthermore, as a majority of women and “black”
voters voted for Hillary Clinton, and had their votes
counted at 71% of those of Trump voters, and 29% on
average if CA citizens, they are being discriminated
against by having their votes diluted, thus stolen.
Finally, Trump in an interview about a year ago
acknowledged that he fully intended not to win the
“popular” vote, but to eke out a victory by trying to
game the electoral process. He had full intention of
subverting our votes, and admitted it. “Excerpts From
Trump’s Interview With The Times” 12/28/2017, NY
Times, https://www.nytimes.com/2017/12/28/us/pohtics/

App.62a
trump-interview-excerpts.html Here he clearly states
that he intended to use the electoral “college” system
to intentionally try to subvert the will of the people
to choose our president by gaming the system to force
his rule upon us against our will, or votes, or human
and constitutional rights, as protected by our consti­
tution, and by the treaty the USA enacted in 1992,
the ICCPR, the International Covenant on Civil and
Political Rights, which the USA enacted (Senate vote
and signed by elected president G.H.W. Bush to
enforce our civil and political rights, which it enumer­
ates completely rests on our rights to “equal and
universal suffrage”.
DEFENDANT TRUMP in the following interview
conducted in Dec. 2017 by NY Times reporter Michael
Schmidt clearly expresses that he fully intended to
try to subvert the will of the people by getting “elected”
by the electors, not by the majority of the Americans,
as Sec. Hillary Clinton attempted, and accomplished.
Here he clearly states such intention to steal our
votes:
‘“TRUMP: . . . So, I think it’s been proven that
there is no collusion. And by the way. I didn’t
deal with Russia. I won because I was a better
candidate by a lot. I won because 1 campaigned
properly and she didn’t. She campaigned for
the popular vote. I campaigned for the Elec­
toral College. And you know, it is a totally
different thing, Mike. You know the Elec­
toral College, it’s like a track star. If you’re
going to run the 100-yard dash, you work
out differently than if you’re going to run
the 1,000 meters or the mile.

App.63a
And it’s different. It’s in golf. If you have a
tournament and you have match play or
stroke play, you prepare differently, believe
it or not. It’s different. Match play is very
different than stroke play. And you prepare.
So I went to Maine five times, I went to
[inaudible], the genius of the Electoral College
is that you go to places you might not go to.
And that’s exactly what [inaudible]. Other­
wise, I would have gone to New York, Cali­
fornia, Texas and Florida.
SCHMIDT: You would have run completely
differently.
TRUMP: It would have been a whole different
thing. The genius is that the popular vote is
a much different form of campaigning. Hillary
never understood that.” NY Times, 12/28/2017
Schultz hereby requests that this Court protect
SCHULTZ’s and the Citizens of CA’s human and
constitutional rights to be governed by who he and
the citizens of CA and the USA elected and ENFORCE
THE RESULTS of the 2016 election, count his vote and
all California voters and all those in nation’s votes
and who voted for Clinton’s votes equally as those
who voted in other states or voted for Trump, and
name Hillary Clinton president, as she won by 66 to
63 million votes. DEFENDANT JUDGE ROBERTS
broke his oaths to protect our constitutional and
human rights when he swore him in, and TRUMP broke
our rights when he accepted the oath, and continues
to violate our rights to be represented by whom we
elected, every second he in in power against the will
of the majority of the people of the USA. SUCH is

App.64a

your responsibility as representatives of the Judicial
branch, and our only protector against, tyranny by
the minority of people in our nation, forever. Our
rights to democracy, and our lives, are at stake now,
until you enforce our rights to be governed by whom
we elected, Hillary Clinton. Thank you.
Sincerely,
/s/ Frederic C. Schultz. Esq.
Pro Se Appellant

App.65a
APPELLANT’S INFORMAL BRIEF
(MAY 16, 2018)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FREDERIC C. SCHULTZ, ESQ., an Individual,
Plain tiff-Appellan t,
v.
CHIEF JUSTICE OF THE UNITED STATES JOHN
G. ROBERTS, JR., ESQ. and DONALD J. TRUMP,
“PRESIDENT” OF THE UNITED STATES OF
AMERICA,
Defendant-Appellees.
Case No.:17-56852
D.C. Case No: 17-CV-0097-WQH-KSC
1. Jurisdiction
a. Timeliness of Appeal:
i)

Date of entry of Judgment or order of
Originating Court: 10/10/17

iv) Date notice of appeal filed: 12/8/17
9th Cir. Case No: 17-56852

App.66a

2. What are the facts of your case?
Plaintiff FREDERIC C. SCHULTZ, ESQ. (here­
inafter “SCHULTZ”) is a resident of the State of
California who in the 2016 Presidential Election
voted for Sec. Hillary Clinton on Nov. 8, 2016. Despite
being among the majority of voters in the USA,
65,844,954 citizens, who voted for Clinton, by a margin
of 2,865,075 over Defendant Donald TRUMP (herein­
after “TRUMP”), pursuant to the 12th Amendment of
the Constitution of the USA, the electors met and
voted for Defendant TRUMP by a margin of 304 to
227 for Defendant TRUMP, not Clinton, who won the
election, thus weakening SCHULTZ’s vote, those who
voted for Clinton in CA, and all those who voted for
her in the nation’s vote, enough to name TRUMP the
winner, despite his monumental loss of the election.
Congress proceeded to illegally ratify the elector’s
stealing of SCHULTZ’s and the majority of American
voters votes. On 1/19/2017, SCHULTZ sued in the
Federal Southern District of CA to get the court to
block Defendant ROBERTS from swearing in TRUMP.
The Court refused to block the illegal ceremony, thus
Defendant ROBERTS violated his oath to uphold the
Constitution of the USA and swore in TRUMP, who
violated the oath he took by taking it, thus illegally
becoming the President despite having lost the election
by almost 3 million votes to Sec. Hillary Clinton. As a
CA voter, SCHULTZ had his vote diluted to that of
29% of a WY voter, on average, when the vote tally is
compared to the electoral vote. Furthermore, as a
citizen who voted for Clinton, SCHULTZ and the
majority millions who voted for Clinton had our vote
diluted to 71% of those of citizens who voted for
Defendant TRUMP. Calculated another way, on aver-

App.67a
age, those who voted for Trump’s votes were counted
at 1.4x those of SCHULTZ and others who voted for
Clinton. After considering subsequent briefs submitted
by Defendants ROBERTS + TRUMP, and SCHULTZ’s
reply, the lower court dismissed SCHULTZ’s and
the majority’s claim of a violation of his 5th and 14th
Amendment Rights to “no deprivation of liberty without
due process” and to violation of his and others’ rights
to “equal protection” of the laws.
3. What did you ask the originating court to do (for
example, award damages, give injunctive relief, etc.):
Appellant/Plaintiff SCHULTZ in his first brief
requested that the lower Court block Appellee/Defend­
ant Chief Justice ROBERTS from violating his oath
to uphold the Constitution and swearing in TRUMP
despite ROBERTS knowing that doing so would steal
the vote from SCHULTZ and the 65,844,954 others
who voted for Clinton. Appellant/Plaintiff SCHULTZ
also sought to get the lower Court to block TRUMP
from accepting the oath, despite knowing that he had
lost the election by almost 3 million votes, and thus
was violating SCHULTZ’s and the citizens’ of the
USA’s Human and Constitutional rights to “universal
and equal suffrage”, “due process”, and “equal protec­
tion of the laws”. In SCHULTZ’s reply brief, after
Defendant/Appellee ROBERTS had sworn in Defend­
ant/Appellee TRUMP, Plaintiff/Appellant SCHULTZ
requested that the lower Federal Court reverse the
swearing in by ROBERTS of TRUMP, uphold the
results of the election by counting his and all who
voted in the election’s votes equally, as democracy
and fairness and our rights demand, and name Sec.
Hillary Clinton president. The court refused to do so,
and at a later date dismissed SCHULTZ’s lawsuit.

App.68a
Plaintiff/Appellee here in this appeal requests that
the 9TH CIRCUIT COURT OF APPEALS count
SCHULTZ’s, all who voted for Sec. Clinton’s, and all
who voted for TRUMP’s votes equally, uphold the
results of the popular vote, throw out the immoral
and illegal electoral “college” vote, and name Sec.
Hillary Clinton president. Furthermore, SCHULTZ
hereby requests that the 9TH CIRCUIT attempt to put
the state of the nation back to where it was when he
first filed his suit, and, according to the principle of
“AB INITIO”, declare all actions taken by TRUMP
illegal, and reverse them all, including the appointment
of all Federal judges, including “Justice” Neil Gorsuch,
as he was appointed by a “president” who was riot
elected by the populace of our great nation.
4. State the claim or claims you raised at the
originating court.
Plaintiff/Appellant SCHULTZ claimed that his
right, and the majority millions who voted for Clinton’s
Human and Constitutional Rights, to equal suffrage,
due process, and equal protection of the laws would
be, and then was, violated when Defendant/Appellee
ROBERTS swore in Defendant/Appellee TRUMP,
despite having lost the election by almost 3 million
votes.
5. What issues are you raising on appeal? What
do you think the originating court did wrong?
Is the 12th Amendment (which establishes the
electoral “college” system) Unconstitutional as it was
overruled by the 14th Amendment, the 5th Amendment
as interpreted by courts in light of the 14th
Amendment, and by the 1948 Universal Declaration of
Human Rights’ interpretation of those Amendments’

App.69a

guarantee to our citizens of “universal and equal
suffrage”, as codified and enacted by President George
H. W. Bush and Congress in 1992 in The International
Covenant on Civil and Political Rights (ICCPR) United
Nations Human Rights treaty, which is now supposed
to be the ‘law of the land”?
The lower court wrongly decided that the electoral
“college” system explicated in the 12th Amendment
of the Constitution is Constitutional even though it
steals our Human and Constitutional Rights to “due
process” and “equal protection of the laws” by not
counting SCHULTZ’s, California citizens, and citizens
who voted for Clinton’s votes equally to those of
people who live in more rural states or who voted for
Trump. The lower court violated SCHULTZ’s and all
citizens’ rights to “One Person, One Vote” by not
blocking Defendant/Appellee Chief Justice ROBERTS
from swearing in Defendant/Appellee TRUMP, despite
the fact that he lost the election by almost 3 million
votes cast by citizens on Nov. 8, 2016, and by not
reversing the results of the stolen election after all
briefs were filed, but instead dismissed SCHULTZ’s
lawsuit, thus stealing SCHULTZ’s and all citizens of
our state and nation’s rights to equal suffrage, as
guaranteed by the 5th and 14th Amendments of the
Constitution.
6. Did you present all issues listed in #5 to the
originating court?
No.
If not, why not?
Plaintiff/Appellant SCHULTZ in his initial
complaint/injunction and responsive brief did cite the
fact that the USA signed the Universal Declaration

App.70a

of Human Rights (UDHR) in 1948, in which our nation
promised to uphold our citizens’ Human and
Constitutional Rights to “universal and equal suffrage”.
However, SCHULTZ did not mention that the UDHR
had been codified into “the law of the land” (which all
treaties are) by elected President George H. W. Bush
and the Senate in 1992 by the International Covenant
on Civil and Political Rights (ICCPR) treaty, because
Plaintiff/Appellant SCHULTZ only discovered two days
ago that our nation had signed the treaty into law,
thus codifying the UDHR and our right to “One Person,
One Vote”.
7. What law supports these issues on appeal?
The 12th Amendment of the Constitution, estab­
lishing the Electoral “College” system of electing our
president after the people vote in the general elec­
tion, is unconstitutional because it steals our Human
and Constitutional rights to “universal and equal suf­
frage” which are supposed to be protected by the 5th
and 14th Amendments, which overturned the 12th
Amendment. Not only in the last election, but four
previous times, the will of the people was subverted by
the 12th Amendment’s system of electing the pre­
sident. Every second he is in the office of “president”,
despite losing the election, Defendant/Appellee TRUMP
endangers the lives of millions of Americans, millions
of refugees who we have an obligation to protect, our
soldiers and the untold thousands of civilians he is
ordering them to kill around the world, the millions
of Americans who he is attempting to kill by stealing
our rights to food, shelter, and universal healthcare,
and truly likely will kill all life on earth by starting a
nuclear war, including over 326 million Americans
and over 7.6 billion people worldwide, due to the fact

App.71a
that he was not elected by our nation’s population
because of his extreme stupidity, anger, insanity,
corruption, ignorance, treason, and extreme hatred of
all other people besides himself, which endangers us
all, every second. Unless this court names Sec. Hillary
Clinton because she won the election, and orders all
actions he took under color of being an unelected
“president” null and void, Defendant/Appellee TRUMP
has threatened to, and surely will, fire those who are
investigating him and his corrupt lackeys for treason,
collusion with Russia to subvert the will of the
American people, and corruption, and to attempt to
pardon himself and those who have aided him in his
crimes. Furthermore, even if he is thrown out of office,
the even more unelected “Vice President” Mike Pence
will attempt to pardon him, and if Pence is in jail for
corruption and collusion with Russia to steal our
votes, then those lower down the line will attempt to
pardon them for their crimes against the American
people and humanity. The only way this court can save
all life on earth is by immediately making America a
Democracy by counting our votes equally, as most
nations in the world do, and naming Sec. Hillary
Clinton president, as she won the election by almost
3 million votes.
IS IT POSSIBLE FOR A PART OF THE CON­
STITUTION, AN AMENDMENT, TO BE UNCON­
STITUTIONAL? YES, IF IT IS DEEMED OVER­
RULED BY A SUBSEQUENT AMENDMENT, OR
THE CURRENT INTERPRETATION OF A PRIOR
AMENDMENT.
For instance, the 11th Amendment’s prohibition
of allowing a state to be sued in federal court was
overturned by the 14th Amendment’s promise that no

App.72a

State “shall deny to any person ... the equal protection
of the laws.” Section 5 of the 14th Amendment allowed
Congress to pass such laws necessary to enforce it,
and Congress did so by passing Title VII of the Civil
Rights Act of 1964, which banned employment dis­
crimination for “race or gender” even by States. The
Supreme Court, in “Fitzpatrick v. Bitzef 427 U.S.
445 (1976) upheld the provision of the Civil Rights Act,
stating “the Eleventh Amendment, and the principle
of state sovereignty which it embodies, are necessarily
limited by the enforcement provisions of Section 5 of
the Fourteenth Amendment.”
Just as the Supreme Court ruled in 1976 that the
14th Amendment, and it’s enacting legislation the
Civil Rights Act of 1964 overruled provisions of the
11th Amendment, this court must here rule that the
14th Amendment, and it’s enacting legislation Inter­
national Covenant on Civil and Political Rights
(ICCPR) treaty which guarantees our nation will protect
our citizens’ rights to “universal and equal suffrage”
(Section 25 (b)) The full text of section 25 of the
ICCPR treaty, as enacted by Congress and the Presi­
dent, is:
“Every citizen shall have the right and the
opportunity, without any of the distinctions
mentioned in article 2 and without unrea­
sonable restrictions:
(a) To take part in the conduct of public affairs,
directly or through freely chosen represent­
atives;
(b) To vote and to be elected at genuine periodic
elections which shall be by universal and
equal suffrage and shall be held by secret

App.73a

ballot, guaranteeing the free expression of
the will of the electors;
(c)

To have access, on general terms of equal­
ity, to public service in his country.”

President George H. W. Bush, before signing the
ICCPR treaty, objected to a few provisions of the
treaty, including a provision that banned states from
executing minors, which the Supreme Court of the USA
banned several years later. (Not of real importance
here is whether those objections were legally binding.)
Despite making a few objections before signing it,
neither he nor the Senate objected to the provision
calling for “universal and equal suffrage” for all
citizens of voting age. Treaties are considered the
“law of the land.” Yes, there has been some dispute
as to whether treaties have equal weight to the Con­
stitution, or just have the weight of legislation (which
must of course adhere to the constitution), but either
way, Congress enacted the treaty, and this Court
must uphold its provision that we are all, including
Plaintiff/Appellant SCHULTZ, the people of the
great state of CA whose vote was counted less than
anyone’s vote in our nation and at 29% of the weight
of voters living in Wyoming, and citizens who voted
for Clinton, whose votes were counted at 71% (on
average, given also unconstitutional state “Winner
Take All” (PTA) rules, not to mention the unconstitu­
tional rules which ban millions of USA citizens living
in territories from voting for president at all) of
people who voted for Defendant/Appellee TRUMP,
entitled to have our votes counted equally now, by
this court naming Hillary Clinton President, and
letting the Supreme Court ratify our votes and make
America a Democracy already.

App.74a

Yes, it is true that the Equal Protection Clause
of the 14th Amendment in its text applies to the states,
but the 5th Amendment’s Due Process Clause applies
to the Federal Government, as many Supreme Court
cases have held. The Supreme Court held in “Bolling
v. Sharpd’, 347 U.S. 497 (1954), that the 14th Amend­
ment holds the Fed govt to the same equal protection
requirements as the states. As the Court stated in
Bolling. “Though the Fifth Amendment does not con­
tain an equal protection clause, as does the Four­
teenth Amendment, which applies only to the States,
the concepts of equal protection and due process are
not mutually exclusive.” 347 U.S. 497, 499. Similarly,
the Court held in “ Weinberger v. Weisenfeld’, 420 U.S.
636 (1975), that “This Court’s approach to 5th Amend­
ment equal protection claims [covering the federal
government] has . . . been precisely the same as to
equal protection claims under the 14th Amendment.”
The Supreme Court has held in many cases that
all citizens are entitled to “One Person, One Vote”.
For instance, the Court in Baker v. Carr; 369 U.S.
186 (1962) ruled that the Constitution requires “One
Person, One Vote”.
Similarly, the Supreme Court in “Reynolds v.
Simmd’ 377 U.S. 533 (1964) stated that we are all
entitled to an equal vote no matter where we live,
saying “Legislators represent people, not trees or
acres. Legislators are elected by voters, not farms or
cities or economic interests.”
The lower court, in a ruling by US District Judge
William Q. Hayes, agreed with the Defendants ROB­
ERTS and TRUMP that Gray v. Sanders, 372 U.S.
368, 380 (1963) stands for the proposition that “The
only weighting of votes sanctioned by the Constitu-

App.75a

tion concerns matters of representation, such as
. . . the use of the electoral college in the choice of a
President”. However, that case was a decision
AGAINST allowing any weighting of votes, and only
mentioned the Electoral “college” of the 12th
Amendment to explain that that was a compromise
to get the southern states, then ruled by slave
owners, to join the nation, but it did not say that such
weighting of votes was ever constitutional, just that
it was inapplicable to the case at hand, which ruled
that people in local elections were certainly allowed
equal votes.
The 2016 election is comparable to the ballot
stuffing case “Donohue v. Board of Elections of NY?’
435 F. Supp 957 (E.D.N.Y. 1976) which stated that
the Court has a right to call for a new election. Just
as a Federal Court in a case of ballot stuffing is
required to hold a new election (see Donohue v. Board
of Elections of State of NY, 435 F. Supp. 957 (1976)),
by analogy, in this 2016 presidential election, where
the vote count is accurate but the votes were stolen
by enforcing an immoral, unconstitutional electoral
system enacted to convince slaveholders to get their
states to join the nation, enforcement of which steals
our constitutional and human rights to equal suffrage,
the only remedy for SCHULTZ, the citizen-residents
of CA who received less than 1/3 the vote of the citizens
of WY, the almost 66,000,000 people who voted for
Hillary Clinton, and every voter in our nation except
for the 174,419 residents of Wyoming who voted for
TRUMP, is for this Court to name Hillary Clinton
President of the United States, immediately. If TRUMP
appeals, then the Supreme Court will have to decide
the matter to protect our human and constitutional

App.76a

rights to democracy, by definition an equal vote per
voter.
Plaintiff/Appellant SCHULTZ hereby calls on this
court, therefore, to uphold his Human and Constitu­
tional rights to a say in his government by an equal
say as all other citizens, and to uphold the vote of the
majority and overturn the vote of the electors who
diluted and thus stole our right to vote, and to name
Sec. Hillary Clinton president, as she won the elec­
tion by 3 million votes, and to not only strip Defend­
ant TRUMP of the Title of “President”, but to rule
that any decision he made in office is null and void
under the ancient legal principle of “AB INITIO”,
attempting to make things right by putting them
back to how they were before he stole the most
powerful office in the world, putting all our lives in
danger every second.
Respectfully Submitted,
/s/ Frederic C. Schultz. Esq.
5/16/2017

App.77a
APPELLEES’ ANSWERING BRIEF
(JULY 13, 2018)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FREDERIC C. SCHULTZ,
Plain tiff-Appellan t,
v.
JOHN G. ROBERTS, JR., ESQ. Chief Justice of the
United States and DONALD J. TRUMP, President
of the United States of America,
Defendan t-Appellees.
Case No.:17-56852
On Appeal from the United States District Court
for the Southern District of California
17CV0097-WQH-KSC
Adam L. Braverman
United States Attorney
Katherine L. Parker
Assistant U.S. Attorney Chief, Civil Division
Daniel E. Butcher
Assistant U.S. Attorney
880 Front St., Rm. 6293
San Diego, CA 92101
(619) 546-7696

App.78a

JURISDICTION
The district court entered final judgment on
October 11, 2017. See Appellee’s Supplemental Excerpts
of Record (SER) at 4.1 Plaintiff timely filed his Notice
of Appeal on December 8, 2017. SER 1; Fed. R. App.
P. 4(a)(1)(B). This Court has jurisdiction over Plaintiffs
appeal under 28 U.S.C. § 1291.
QUESTIONS PRESENTED
1. Whether the Twelfth Amendment to the United
States Constitution is constitutional.
2. Whether the Court lacks subject matter juris­
diction over Plaintiffs complaint because: (l) Plain­
tiff lacks standing to challenge the Electoral College;
and (2) Plaintiffs challenge to the inauguration of
President Trump is moot.
STATEMENT
A.

Facts

Frederic C. Schultz (“Plaintiff) alleges that he
voted for Hillary Clinton in the November 8, 2016
presidential election. SER 38, ]f 1. Although Hillary
Clinton won the popular vote, President Trump
prevailed in the Electoral College. SER 39,
7-8.
On January 20, 2017, Chief Justice John Roberts
administered the oath of office to then-president-elect
Donald Trump, who accepted the oath and assumed
1 Plaintiff did not file Excerpts of Record with his Opening Brief
(and, as a pro se appellant, was not required to do so under
Ninth Circuit Rule 30-1.2). Defendants therefore have filed Supple­
mental Excerpts of Record with this brief.

App.79a

the presidency. SER 41 (referring to “the Presidential
Inauguration scheduled for 12:00 P.M. tomorrow in
Washington, D.C.”).
B.

Procedural History
1. Plaintiff’s Complaint

On January 19, 2017, Plaintiff filed a complaint
in the United States District Court for the Southern
District of California. SER 37. Plaintiffs complaint
named Chief Justice John G. Roberts and thenpresident-elect Donald J. Trump as defendants, SER
37, and sought to overturn the 2016 presidential
election on the ground that the Electoral College
violates the “one person, one vote” principle embodied
in the Fifth and Fourteenth Amendments. SER 38-41,
11 3, 7-11.
Although Plaintiff did not file his complaint until
the day before the January 20, 2017 inauguration, ER
37, and did not serve his complaint until nearly four
months after the inauguration, Clerk’s Record Nos.
5-8, Plaintiff sought (l) “an order permanently enjoining
CHIEF JUSTICE ROBERTS from swearing in Donald
TRUMP as President,” SER 1 4 (Prayer for Relief, 1 4),
and (2) “a judicial declaration that the Electoral system
and process laid out in the TWELFTH AMENDMENT”
violates “the FIFTH and FOURTEENTH AMEND­
MENTS protections of equal protection under the
laws,” SER 44 (Prayer for Relief, 1 2), and (3) “a
judicial declaration that as Hillary Clinton beat
Donald TRUMP by almost 3 million votes in the final
tally, she won the Presidential Election of 2016, and
Chief Justice of the US ROBERTS shall, as soon as
practicable but within one month of today, swear in

App.80a
Hillary Rodham Clinton as the 45th President of the
USA, and not Donald TRUMP as he lost the election
to her on Nov. 8, 2016, and that current President
Barack Obama shall stay president until such date.”
SER 44-45 (Prayer for Relief, | 5).
2. Defendants’ Motion to Dismiss
Chief Justice Roberts and President Trump filed
a Motion to Dismiss asserting that: (l) Plaintiff lacked
standing (because he did not suffer a concrete and
particularized injury caused by either Chief Justice
Roberts or President Trump); (2) Plaintiffs request
for an injunction prohibiting the inauguration from
proceeding was moot (because it had already taken
place); and (3) Plaintiff failed to state a plausible
claim for relief (because the Electoral College is part
of the Constitution and, therefore, cannot be uncon­
stitutional). SER 26-36.
Plaintiff opposed the Motion to Dismiss, contending
that he had standing because the injury suffered was
particular to him and all who voted for Clinton in
California. SER 15-16. Plaintiff further claimed that
his injury was directly caused by Chief Justice Roberts
administering the oath of office to President Trump
and by President Trump accepting the oath. SER 16-17.
Regarding mootness, Plaintiff responded that his
case is not moot “because the electoral system is just
glorified ballot stuffing/vote stealing” and that “there
exists [a] clear and present danger” in the Electoral
College today. SER 18.
On the merits, Plaintiffs Opposition argued that
“Ijjust because something is written in the Constitution
does not make it constitutional.” SER 19. Plaintiff

App.81a
further argued that the Twelfth Amendment is
inconsistent with the Fourteenth Amendment, the
Declaration of Independence, and the Universal Dec­
laration of Human Rights. SER 20.
3. The District Court’s Order
Defendants’ Motion to Dismiss

Granting

The district court granted Defendants’ Motion to
Dismiss in a three-page order. SER 5-7. The district
court ruled that Plaintiffs claim that the Electoral
College violated the Fifth and Fourteenth Amendments
failed to state a plausible claim for relief because
“[t]he Electoral College system is specifically provided
for by the Twelfth Amendment.” SER 7. The district
court further ruled that any proposed amended
complaint would be futile because the sole basis for
Plaintiffs complaint was the unconstitutionality of
the Electoral College. Id.
The district court found it unnecessary to address
Plaintiffs standing and mootness arguments in light
of its ruling that Plaintiffs complaint failed to state a
plausible claim for relief. SER 7, n.2.
SUMMARY OF ARGUMENT
The district court properly granted Defendants’
Motion to Dismiss. Plaintiffs allegation that the
Electoral College is unconstitutional fails because the
Electoral College is part of the Constitution.
The Court also lacks subject matter jurisdiction
over Plaintiffs complaint. Plaintiff lacks standing
because he did not suffer a particularized injury.
Further, any hypothetical injury that Plaintiff suffered
was not attributable to either Chief Justice Roberts

App.82a

or President Trump, the only Defendants whom
Plaintiff named in this lawsuit. Finally, Plaintiffs
complaint is moot because President Trump’s inau­
guration has already taken place.
ARGUMENT
A.

Standard of Review

“This Court reviews de novo the district court’s
dismissal for failure to state a claim under Federal
Rule of Civil Procedure 12(b)(6).” O’Brien v. Welty,
818 F.3d 920, 929 (9th Cir. 2016).
This Court may affirm on any ground that is
“supported by the record, whether or not relied upon
by the district court.” Li v. Kerry, 710 F.3d 995, 999
(9th Cir. 2013) (quoting Hall v. N. Am. Van Lines,
Inc., 476 F.3d 683, 686 (9th Cir. 2007)).
B.

The District Court Correctly Ruled that Plaintiffs
Complaint Failed to State a Plausible Claim for
Relief (Fed. R. Civ. Pro. 12(b)(6))

A court must dismiss a complaint if a plaintiff
fails “to state a claim upon which relief can be granted.”
Fed. R. Civ. P. 12(b)(6). Plaintiffs complaint here
failed to state a plausible claim for relief.
Plaintiffs complaint alleges that the Twelfth
Amendment, which provides for Electoral College, is
unconstitutional. ER 38-41. The district court correctly
rejected this claim and dismissed Plaintiffs complaint
without leave to amend.
The Twelfth Amendment states:
The Electors shall meet in their respective
states and vote by ballot for President... and

App.83a

the votes shall then be counted; The person
having the greatest Number of votes for
President, shall be the President, if such
number be a majority of the whole number
of electors appointed. . . .
U.S. Const, amend. XII; see also U.S. Const, art.
II, § 1 (“Each State shall appoint, in such Manner as
the Legislature thereof may direct, a Number of
Electors, equal to the whole Number of Senators and
Representatives to which the State may be entitled
in the Congress. . . . ”).
Thus, as the Supreme Court has recognized, the
Constitution itself sanctions the Electoral College
and any “weighing of votes” resulting from it. Gray v.
Sanders, 372 U.S. 368, 378 (1963) (“The inclusion of
the electoral college in the Constitution, as a result of
specific historical concerns, validated the collegiate
principle despite its inherent numerical inequality.
. . . ”); see also at 380 (“[T]he only weighing of votes
sanctioned by the Constitution concerns . . . the use
of the electoral college in the choice of a President.”);
Bush v. Gore, 531 U.S. 98, 104 (2000) (“The individ­
ual citizen has no federal constitutional right to vote
for electors for the President of the United States
unless and until the state legislature chooses a state­
wide election as the means to implement its power to
appoint members of the Electoral College.”).
Although Plaintiff argues that the Twelfth Amend­
ment was “overruled” by the Fifth and Fourteenth
Amendments, Appellant’s Opening Brief (AOB) at 6,

App.84a

the district court in New v. PelosN explained the
fundamental flaw in this argument:
Ultimately, this Court lacks the power to
grant the relief sought because the Court,
as interpreter and enforcer of the words of
the Constitution, is not empowered to strike
the document’s text on the basis that it is
offensive to itself or is in some way inter­
nally inconsistent. In other words, the elec­
toral college cannot be questioned constitu­
tionally because it is established by the
Constitution.
2008 WL 4755414, at *2 (internal quotation omitted).
Other courts are in agreement. See, e.g., New v.
Ashcroft, 293 F. Supp. 2d 256, 259 (E.D.N.Y. 2003)
(ruling that a complaint seeking to invalidate the
Electoral College failed to state a viable claim for
relief); Trinsey v. United States, No. 00-5700, 2000
WL 1871697, at *7 (E.D. Pa. Dec. 21, 2000) (unpub­
lished) (“neither the Constitution nor the ‘one person,
one vote’ doctrine .. . empowers the courts to overrule
constitutionally mandated procedure in the event
that the vote of the electors is contrary to the popular
vote”); Penton v. Humphrey, 264 F. Supp. 250, 251
(S.D. Miss. 1967) (ruling that “the alleged inequities
of the electoral college are an exception of the
application of [the one person, one vote] doctrine”);
see generally Williams v. North Carolina, No. 3:17CV-265-MOC-DCK, 2017 WL 4936429, at *4-5
(W.D.N.C. Oct. 2, 2017) (collecting cases), report and
recommendation adopted, 2017 WL 4935858 (W.D.N.C.
2 No. 08 Civ. 9055 (AKH), 2008 WL 4755414 (S.D.N.Y. Oct. 29,
2008), affd, 374 F. App’x 158 (2d Cir. 2010) (unpublished).

App.85a

Oct. 31, 2017), affd sub nom. Williams v. NC State Bd.
of Elections, 719 F. App’x 256 (4th Cir. 2018) (unpub­
lished)^
In sum, the Electoral College is part of the
Constitution and, therefore, is constitutional. The
district court properly dismissed Plaintiffs complaint.
C.

The Court Lacks Subject Matter Jurisdiction
Over Plaintiffs Complaint (Fed. R. Civ. Pro.
12(b)(1))

Defendants raised lack of subject matter juris­
diction as a basis for dismissal in the district court.
ER 29-32. The district court did not reach the issue
because it dismissed the case on other grounds. SER
7, n.2. But this Court may affirm the dismissal of
Plaintiffs complaint on this alternative ground. See
Li, 710 F.3d at 999.4

3 Plaintiff also argues that the Twelfth Amendment violates the
1948 Universal Declaration of Human Rights, ratified in 1992
by the International Covenant on Civil and Political Rights
treaty. AOB 6. This argument does not advance Plaintiffs case.
Like statutes, treaties must comply with the Constitution. See
Reid v. Coventry, 354 U.S. 1, 18 (1957) (“It would be completely
anomalous to say that a treaty need not comply with the
Constitution when such an agreement can be overridden by a
statute that must conform to that instrument”).
4 Subject matter jurisdiction may be raised by any party at any
stage of the proceedings. Intercontinental Travel Marketing,
Inc. v. FDIC, 45 F.3d 1278, 1286 (9th Cir. 1994) (“an objection
to subject matter jurisdiction may be raised at any time, by any
party or the court.”).

App.86a

1. Plaintiff Lacks Standing
The existence of Article III standing is a thresh­
old determination concerning “whether the litigant is
entitled to have the court decide the merits of the
dispute or of particular issues.” Warth v. Seldin, 422
U.S. 490, 498 (1975). To seek relief in federal court, a
plaintiff “must first demonstrate that he has standing
to do so.” Gill v. Whitford, 138 S. Ct. 1916, 1923
(2018). See also Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 104 (1998) (“[T]he party invoking
federal jurisdiction bears the burden of establishing
its existence.”); DaimlerChrysler Corp. v. Cuno, 547
U.S. 332, 342, n.3 (2006) (“[W]e presume that federal
courts lack jurisdiction unless the contrary appears
affirmatively from the record.”) (quoting Renne v.
Geary, 501 U.S. 312, 316 (1991)).
Standing requires an “irreducible constitutional
minimum” of three elements: (l) a concrete and
particularized injury in fact; (2) an injury fairly
traceable to the defendant’s alleged unlawful conduct;
and (3) the injury is likely to be redressed by a favor­
able decision. Lujan v. Defenders of Wildlife, 504 U.S.
555, 560-61 (1992). If any one of these elements is
not satisfied, then a federal court cannot invoke its
jurisdiction and must dismiss the case. Id.
Here, Plaintiff cannot establish either the first
or second element of standing.
a. Plaintiff Did Not Suffer a Concrete and
Particularized Injury
To satisfy the “concrete and particularized injury”
requirement, a plaintiff must establish “a personal
stake’ in the outcome, . . . distinct from a generally

App.87a
available grievance about the government.” Gill v.
Whitford, 138 S.Ct. at 1923 (internal citation and
quotation omitted). See also id. at 1929 (“[A] plaintiff
may not invoke federal-court jurisdiction unless he
can show ‘a personal stake in the outcome of the con­
troversy. ... A federal court is not ‘a forum for gener­
alized grievances’. . . . ”); DaimlerChrysler Corp, 547
U.S. at 344 (a grievance that a “taxpayer suffers in
some indefinite way in common with people gener­
ally” is not “concrete and particularized”).
Plaintiffs complaint fails to establish his personal
stake in the Electoral College. Plaintiff is neither an
elector in the Electoral College nor a candidate sub­
ject to its vote. Instead, Plaintiff asserts only a gener­
alized grievance applicable to all voters: the candi­
date for whom one votes may win the popular vote,
but lose in the Electoral College. See, e.g., ER 39-40,
8 (alleging dilution of the votes of all Clinton voters
generally and, further, that “over 99.8% of the voters
in the U.S.A. have our votes diluted compared to, and
by, [Wyoming] voters”); see also AOB 2 (explaining
that Plaintiffs vote was weakened along with the
votes of all of “those who voted for Clinton in CA, and
all those who voted for her in the nation’s vote.”);
AOB 4 (alleging a violation of “the citizens’ of the
USA’s Human and Constitutional rights to ‘universal
and equal suffrage”’); AOB 13-14 (“[T]he only remedy
for. . . every voter in our nation except for the
174,419 residents of Wyoming who voted for
TRUMP, is for this Court to name Hillary Clinton
President of the United States, immediately.”). Plain­
tiffs generalized grievance is insufficient to satisfy
the “concrete and particularized injury” element of
standing. See Drake v. Obama, 664 F.3d 774, 782

App.88a
(9th Cir. 2011) (a voter who “has no greater stake in
[the] lawsuit than any other United States citizen”
lacks standing to challenge constitutional legitimacy
of presidency); see also Collins v. Merrill, No. 16-cv9375 (RJS), 2016 WL 7176651, at *2 (S.D.N.Y Dec. 7,
2016) (unpublished) (ruling that plaintiff lacked
standing to seek injunctive relief barring defendants
from certifying the results of the 2016 Electoral Col­
lege; “the complaint is premised entirely on alleged
injuries that Plaintiff shares with the general voting
population. ...”).
b. Any Injury is Not Fairly Traceable to
Either Chief Justice Roberts or
President Trump
To satisfy the second element of standing, a
plaintiff must show that the alleged injury is “fairly
traceable to the challenged action of the defendant,
and not. . . the result of the independent action of
some third party not before the court.” Pritikin v.
Dep’t of Energy, 254 F.3d 791, 797 (9th Cir. 2001)
(citing Defenders of Wildlife, 504 U.S. at 560-61.
Further, a plaintiff must suffer a personal injury “as
a result of the putatively illegal conduct of the
defendant.” Valley Forge Christian College v.
Americans United for Separation of Church & State,
Inc., 454 U.S. 464, 472 (1982) (quoting Gladstone,
Realtors v. Village of Bellwood, 441 U.S. 91, 99
(1979)).
Purely ministerial actions do not give rise to
an injury that is “fairly traceable” to the individual
performing the ministerial act. See, e.g., Gordon v.
Biden, 606 F. Supp. 2d 11, 14 (D.D.C. 2009) (dismiss­
ing an Electoral College suit against the Vice President

App.89a

for lack of standing; “[b]ecause Gordon’s alleged
injury is not ‘fairly traceable’ to the Vice President’s
actions, which in fact are purely ministerial, but
rather is attributable to the actions of third-party states
and state officials, he fails to satisfy the causation
element of standing.”), affd, 364 F. App’x 651 (D.C.
Cir. 2010) (unpublished).
Plaintiffs complaint here named Chief Justice
Roberts and President Trump as defendants. ER 37.
But neither Chief Justice Roberts nor President
Trump caused Plaintiffs alleged injury-they did not
create the Electoral College, they are not members of
it, they neither preside nor have any authority over
it, and they have no power to change it. Instead, and
as alleged in Plaintiffs complaint, their only role in
the process was to perform the ministerial actions of
administering (Chief Justice Roberts) and receiving
(President Trump) the oath of office. ER 38, 40-41, 43
(ft 2, 10-12, 16-18). Because Chief Justice Roberts’
and President Trump’s actions were purely
ministerial, Plaintiffs complaint does not satisfy the
“fairly traceable” requirement. Plaintiff therefore
cannot establish the causation element of standing.
See, e.g., Perkel v. United States, No. COO-4288 SI,
2001 WL 58964, at *2 (N.D. Cal. Jan. 9, 2001) (dis­
missing a challenge to the Electoral College for lack of
standing because the alleged harm did not flow from
the actions of the United States, the only defendant
named in the complaint).
2. Plaintiffs Case is Moot
Article III requires that a live controversy
“must exist at all stages of the litigation, including
appellate review, and not simply at the date the

App.90a

action is initiated.” McCullough v. Graber, 726 F.3d
1057, 1059 (9th Cir. 2013) (internal quotations omitted).
If at any point some event renders the controversy
moot, the Court lacks jurisdiction and must dismiss
the case. See Center for Biological Diversity v. Lohn,
511 F.3d 960, 963 (9th Cir. 2007).
Plaintiffs complaint seeks (l) to enjoin the
inauguration of President Trump, and (2) a declara­
tion that the Electoral College is unconstitutional.
ER 44. Both prayers for relief are moot.
a. Plaintiffs Request for Injunctive Relief
is Moot
Plaintiff did not file his complaint until January
19, 2017, the day before the January 20, 2017
inauguration, ER 37, and did not serve his complaint
until April 12, 2017, almost four months later. Clerk’s
Record Nos. 5-8. Because the inauguration has already
taken place, Plaintiffs request to enjoin it is moot.
Protectmarriage.com-Yes on 8 v. Bowen, 752 F.3d
827, 834 (9th Cir. 2014) (“We are unable to effectively
remedy a present controversy between the parties
where a plaintiff seeks to enjoin an activity that has
already occurred, and we cannot ‘undo’ that action’s
allegedly harmful effects.”).
b. Plaintiffs Request for Declaratory Relief
Is Moot
Plaintiffs request for declaratory relief is also
moot. As this Court has held, the mootness doctrine
applies equally to requests for declaratory relief: “A
case or controversy exists justifying declaratory relief
only when the challenged government activity is not
contingent, has not evaporated or disappeared, and

App.91a
by its continuing and brooding presence, casts what
may well be a substantial adverse effect on the
interests of the petitioning parties.” Pinnacle Armor,
Inc. v. United States, 648 F.3d 708, 715 (9th Cir.
2011) (quoting Headwaters, Inc. v. Bureau of Land
Management, 893 F.2d 1012, 1015 (9th Cir. 1989)).
Here, President Trump prevailed in the Electoral
College and assumed the presidency on January 20,
2018. At this point, there is no sufficiently immediate
dispute involving Chief Justice Roberts and Pre­
sident Trump that warrants requiring them to answer
to the continuing vitality of the Twelfth Amendment
in future elections. Plaintiffs request for declaratory
relief therefore is moot. See Gator.com Corp. v. L.L.
Bean, Inc., 398 F.3d 1125, 1129 (9th Cir. 2005) (“The
limitations that Article III imposes upon federal
court jurisdiction are not relaxed in the declaratory
judgment context.... The test for mootness in the
context of a case ... in which a plaintiff seeks decla­
ratory relief... is whether the facts alleged, under
all the circumstances, show that there is a sub­
stantial controversy, between parties having adverse
legal interests, of sufficient immediacy and reality to
warrant the issuance of a declaratory judgment.”)
(internal citations and quotations omitted); Alvarez
v. Smith, 558 U.S. 87, 93 (2009) (“[A] dispute solely
about the meaning of a law, abstracted from any con­
crete actual or threatened harm, falls outside the
scope of the constitutional words ‘Cases’ and ‘Contro­
versies.’”).
CONCLUSION
For the foregoing reasons, Defendants Chief
Justice Roberts and President Trump respectfully

App.92a

request that the Court affirm the district court’s
dismissal of Plaintiff s complaint.
Respectfully submitted,

Adam L. Braverman
United States Attorney
Katherine L. Parker
Assistant U.S. Attorney
Chief, Civil Division
/si Daniel E. Butcher
Assistant U.S. Attorney
July 13, 2018

App.93a
REPLY TO DEFENDANT-APPELLEES’
ANSWERING BRIEF
(AUGUST 6, 2018)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FREDERIC C. SCHULTZ, ESQ., AN INDIVIDUAL,
Plain tiff-Appellan t,
v.
JOHN G. ROBERTS, JR., ESQ.
CHIEF JUSTICE OF THE UNITED STATES and
DONALD J. TRUMP, “PRESIDENT” OF THE
UNITED STATES OF AMERICA,
Defendant-Appellees.
Case No.:17-56852
D.C. Case No: 17-CV-0097-WQH-KSC
SUMMARY OF ARGUMENT
PLAINTIFF FREDERIC CHARLES SCHULTZ’S,
ESQ. (HEREINAFTER “SCHULTZ”) CONSTITU­
TIONAL AND HUMAN RIGHTS, AS A CITIZEN OF
THE UNITED STATES OF AMERICA, WERE VIO­
LATED WHEN HE VOTED IN THE 2016 ELEC­
TION FOR HILLARY CLINTON IN THE STATE OF
CALIFORNIA, SOLELY BECAUSE HE LIVES IN
THE STATE OF CALIFORNIA. WHEN ALLO-

App.94a
CATED ON A BASIS OF CITIZENS PER ELEC­
TOR, SCHULTZ, AS A CITIZEN OF CALIFORNIA,
ONLY RECEIVED 29% OF THE VOTE OF A US
CITIZEN LIVING IN THE STATE OF WYOMING.
THE SUPREME COURT HAS REPEATEDLY
HELD THAT THE EQUAL PROTECTION CLAUSE
OF THE 14TH AMENDMENT APPLIES TO ALL
CITIZENS OF THE USA, PROTECTING US NOT
JUST FROM HARM BY THE STATES BUT HARM
BY THE FEDERAL GOVERNMENT, AS APPLIED
THROUGH THE “DUE PROCESS” CLAUSE OF
THE 5TH AMENDMENT. DEFENDANT’S ARGU­
MENT THAT JUST BECAUSE SOMETHING IS IN
THE CONSTITUTION MAKES IT CONSTITU­
TIONAL IS ABSURD. THE 14TH AMENDMENT,
PASSED IN 1868 (AFTER THE CIVIL WAR) OVER­
TURNED THE 12TH AMENDMENT’S ELEC­
TORAL “COLLEGE” SYSTEM (1804) BECAUSE IT
DENIED SCHULTZ THE EQUAL PROTECTION
OF THE LAW, SPECIFICALLY HIS RIGHT TO
VOTE, AND TO BE GOVERNED BY WHO HE
HELPED ELECT, ON WHICH ALL OUR OTHER
RIGHTS RELY. FURTHERMORE, THE SENATE
AND THE PRESIDENT IN 1992 CODIFIED THE
UNIVERSAL DECLARATION OF HUMAN RIGHTS
BY PASSING THE INTL. COVENANT ON CIVIL
AND POLITICAL RIGHTS (ICCPR) TREATY,
GUARANTEEING OUR NATION WILL PROTECT
OUR CITIZENS’ RIGHTS TO “UNIVERSAL AND
EQUAL SUFFRAGE”. SCHULTZ NOW REQUESTS
THAT THIS COURT REVERSE THE TRAVESTY
OF THE 2016 ELECTION, WHICH LIKE 4 OTHER
PREVIOUS ELECTIONS, STOLE OUR RIGHT TO
VOTE BY DILUTING OUR CA CITIZENS’ VOTE

App.95a
TO 29% OF THOSE OF THE PEOPLE OF
WYOMING, AND ENFORCE THE RESULTS OF
THE 2016 ELECTION, WEIGHING HIS VOTE AND
ALL AMERICAN’S VOTES EQUALLY, AND DIRECT
CHIEF JUSTICE ROBERTS TO RETRACT HIS
SWEARING IN OF DONALD TRUMP (“TRUMP”)
AS PRESIDENT, AND DIRECT HIM TO SWEAR IN
HILLARY CLINTON INSTEAD AS SHE WON, AND
FURTHERMORE DIRECT “PRESIDENT” DONALD
TRUMP TO RESIGN SO SCHULTZ AND ALL USA
CITIZENS CAN BE GOVERNED BY WHO WE
ELECTED, HILLARY CLINTON, WHEN SCHULTZ’S
AND ALL CITIZENS VOTES ARE WEIGHTED
EQUALLY, AS REQUIRED BY THE 14TH AMEND­
MENT AND THE ICCPR TREATY (1992).
l)

Defendants Argue “If Something Is in the Con­
stitution, It Is Constitutional”

This argument is specious, and absurd. Courts
have ruled parts of our Constitution Unconstitutional
for hundreds of years due to current interpretation of
the Constitution, statutes, treaties and case law, or
subsequent Constitutional Amendments. When Amer­
ica’s founders wrote the Constitution, many of them
owned slaves, who certainly couldn’t vote. Only
landowners could vote at first. Women and former
slaves only gained the right to vote through sub­
sequent Constitutional Amendments, because although
the courts could have granted them their rights to
citizenship and to vote without passing specific Con­
stitutional Amendments, the courts did not. However,
for example, the Courts did grant non-landowning
men and then Native Americans the right to vote
through case law, not constitutional amendment. As
SCHULTZ explained in his opening appellate brief

App.96a

(pp. 9-10), the 14th Amendment itself has already
been used by the Supreme Court to overturn the 11th
Amendment, to enforce the Civil Rights Act of 1964’s
ban on discrimination by states based on “gender
or race”, and SCHULTZ here requests this Court
similarly use the 14th Amendment to overturn the
12th Amendment as being violative of our Equal
Protection rights to an equal vote.
In response to SCHULTZ’S argument that the
14th Amendment is part of the Constitution, and
overrules the earlier-passed 12th Amendment in its
dilution, thus theft, of SCHULTZ’s AND 66 million
Americans, and almost 9 million USA citizens living
in CA’s, votes who voted for Clinton in the last
election, Defendants argue that because the 12th
Amendment is in the Constitution, it can’t be over­
ruled by other parts of the Constitution, like the 14th
Amendment. Defendants quote New v. Pelosi, Case
No. l:08-cv-09055, SDNY 2008, to argue “Ultimately,
this Court lacks the power to grant the relief sought
because the Court, as interpreter and enforcer of the
words of the Constitution, is not empowered to strike
the document’s text on the basis that it is offensive to
itself or is in some way internally inconsistent. In
other words, the electoral college cannot be ques­
tioned constitutionally because it is established by
the Constitution.” (p. 9, Defendants’ Appellate Reply)
and other similar cases to argue “the Electoral College
is part of the Constitution and, therefore, is constitu­
tional.” (p. 10, Defendants’ Appellate Reply).
If Defendants’ argument held any credence,
slavery and prohibition of alcohol would still be legal,
as both were fixed by later Constitutional Amend­
ments. Later Constitutional Amendments overrule

App.97a

earlier ones, and the 14th Amendment, as confirmed
in case law declaring our rights to an equal vote
{Baker v. Carr, Reynolds v. Sims, etc.) and in the
ICCPR treaty, overrules the 12th Amendment which
steals that human right to democracy.
Defendants argue that this issue is settled, that
citizens who live in more populous states like
SCHULTZ are not due an equal vote for president to
those in less populous states.
As the great hero Abolitionist Frederick Doug­
lass stated after the infamous Dred Scott Decision
(1857) to the contention that it was settled law that
former slaves could not be citizens, “The fact is, the
more the question has been settled, the more it has
needed settling.” The citizens of our more populous
states have suffered long enough having our votes
diluted, thus stolen {Reynolds v. Sims), and it is time
for this Court to stand up for SCHULTZ’s and all of
our constitutionally protected human rights, as
citizens of the USA, to an equal vote and democracy,
and enforce the 14th Amendment and stop diluting
our votes and overturn the false results of the 2016
election and declare Hillary Clinton President.
2)

The International Covenant on Civil and
Political Rights (ICCPR) Treaty (1992, USA),
Codifying the United Nations’ Universal Decla­
ration of Human Rights (UN UDHR, 1948),
Guaranteeing Schultz and All Americans an
Equal Vote, and Thus the Right to Be Governed
by Who We Elected for President in 2016,
Hillary Clinton, Is the Law of the Land

Treaties hold equal weight to legislation, at
least, and as the esteemed Justice Oliver Wendell

App.98a
Holmes held, equal weight to the Constitution. As
Defendants concede, US treaties must conform to the
US Constitution. This one does, that’s why the
Congress enacted it, and President George H. W.
Bush signed it, in 1992. SCHULTZ now requests that
the Court finally enforce it, and stop the USA’s
status as the only nation in the world professing to
be a democracy that dilutes its citizens’ votes who
live in more populous states by up to over 3x those
who live in rural or less populous states, creating a
tyranny and dictatorship of the minority, not a
democracy run by majority rule that respects and
defends all our citizens’ and everyone in the worlds’
human rights, including first and foremost the right
to an equal vote, and to be governed and judged by
who we elected, upon which all our other rights,
including our very right to life, freedom, due process,
and certainly equal protection, rely.
President Jimmy Carter, when he originally sent
the Treaty to the USA Senate for ratification in 1978,
explained its importance to protecting our human
rights, including our right to participate in our gov­
ernment, stating, “While the [U.S.] is a leader in the
realization and protection of human rights, it is one
of the few large nations that has [sic] not become a
party to . . . [this Covenant and the other two U.N.
treaties he transmitted]. Our failure to become a
party increasingly reflects upon our attainments, and
prejudices [U.S.] participation in the development of
the international law of human rights. [This Cove­
nant is] . . . based upon the Universal Declaration of
Human Rights, in whose conception, formulation and
adoption the [U.S.] played a central role.... [This Cov­
enant] treats in detail a wide range of civil and politi-

App.99a

cal rights. Freedom of speech and thought, participa­
tion in government, and others are included which
Americans have always considered vital to a free.
open and humane society.” (Emphasis added.) https://
dwkcommentaries.com/2013/02/05/u-s-ratification-ofthe-international-covenant-on-civil-and-political-rights/
President Carter then went on to confirm that
the UDHR (famously championed by First Lady Elea­
nor Roosevelt in 1948 to prevent another World War)
and ICCPR Treaty, including the provisions pro­
tecting our rights to “universal and eoual suffrage”,
were in full compliance with the US Constitution,
according to the Department of Justice, stating: “The
great majority of the substantive provisions of [this
Covenant] are entirely consistent with the letter and
spirit of the [U.S.] Constitution and laws. Wherever a
provision is in conflict with [U.S.1 law, a reservation.
understanding or declaration has been recom­
mended. The Department of Justice concurs in the
judgment of the Department of State that, with the
inclusion of these reservations, understandings and
declarations, there are no constitutional or other
legal obstacles to [U.S.1 ratification.” (Emphasis
added), https://dwkcommentaries.com/2013/02/05/u-sratification-of-the-international-covenant-on-civil-andpolitical-rights/ President George H.W. Bush, when
he sent the treaty to the Senate for ratification and
when he signed it, similarly did not object to the pro­
vision guaranteeing us an equal vote, nor did the
Senate. They promised to uphold our rights, and here
SCHULTZ only requests that this court finally do so
and enforce our human rights to an equal vote, and
to be governed by who we elected in the 2016 election
by over 3 million votes, Hillary Rodham Clinton.

App.lOOa
3)

Subject Matter Jurisdiction (Standing and Moot­
ness):

The Lower Court declined to address these
arguments in prior litigation. If this court wishes to
decide on this basis, it should remand for further
consideration by the District Court.
Prayer for Relief:
The Supreme Court so eloquently stated in the
Civil Rights landmark case Reynolds v Sims (1964),
written by the esteemed Chief Justice Earl Warren,
“Legislators represent people, not trees or acres.
Legislators are elected by voters, not farms or cities
or economic interests. ... A citizen, a qualified voter,
is no more nor no less so because he lives in the city
or on the farm. This is the clear and strong command
of our Constitution’s Equal Protection Clause. This is
an essential part of the concept of a government of
laws and not men. This is at the heart of Lincoln’s
vision of “government of the people, by the people,
[and] for the people.” The Equal Protection Clause
demands no less than substantially equal state legis­
lative representation for all citizens, of all places as
well as of all races. . . .
We hold that, as a basic constitutional standard,
the Equal Protection Clause requires that the seats
in both houses of a bicameral state legislature must
be apportioned on a population basis. Simply stated,
an individual’s right to vote for state legislators is
unconstitutionally impaired when its weight is in a
substantial fashion diluted when compared with
votes of citizens living in other parts of the State.”

App.lOla
Just as we have equal rights to an equal vote in
state elections, we have them in presidential elec­
tions, where our right to choose, and be governed by
who we elected, is so much more important than
state elections that our democracy, freedom, and very
lives are now in great jeopardy.
SCHULTZ respectfully requests that the Court
declare Hillary Clinton president because she won
the 2016 election by almost 3 million USA citizen’s
votes, and therefore direct Chief Justice of the USA
Supreme Court JOHN ROBERTS to uphold his oath
to “support and defend the Constitution of the United
States against all enemies, foreign and domestic” by
rescinding his oath of office of president to Donald
Trump, as his issuance of such an oath in January
2017 violated his oath and Schultz’s and all our
citizens’, including those living in CA + similarly
populous states, rights to an equal vote by swearing
him in in 2017, and our right to be governed and
judged by who we elected, as Defendant TRUMP lost
the election by almost 3 million votes, and thus is not
legally or morally president of the United States.
Plaintiff SCHULTZ thus further requests that the
Court also direct Defendant Donald Trump to revoke
Defendant TRUMP’S oath of office because he was
not elected, and finally requests that the Court direct
USA Chief Justice Roberts to immediately swear in
Hillary Rodham Clinton, as she won the 2016 elec­
tion by almost three million votes. Doing so is the
only way to right the wrong of the diluted, thus stolen,
votes. (Reynolds v. Sims, “[T]he right of suffrage can
be denied by a debasement or dilution of the weight
of a citizen’s vote just as effectively as by wholly
prohibiting the free exercise of the franchise.” 377

App.l02a
U.S. at 555, 84 S. Ct. at 1378, (footnote omitted)).
Votes of SCHULTZ and the 66 million others, including
almost 9 million Californians, who voted for Clinton
in the last presidential election were weakened, thus
stolen, and our human rights to an equal vote to
citizens living in less populous states crushed by the
illegal vote of the Electors to award the presidency to
Defendant TRUMP even though he lost the election
by almost 3 million votes. SCHULTZ requests that
this Court treat the electoral “college’s” vote-diluting
and thus vote-stealing election as detailed in the
12th Amendment to be the same as ballot stuffing
and, as Donohue v. Board of Elections of NY, 435 F.
Supp 957 (E.D.N.Y. 1976) confirms it has the power
and responsibility to do, install the winner in power.
As the Court in Donohue states,: “Thus, while Reynolds
v. Sims was a case involving reapportionment, there
appears to be little distinction, insofar as the four­
teenth amendment is concerned, between dilution of
a citizen’s vote through malapportioned political dis­
tricts and dilution of valid ballots through votes cast
by ineligible voters. ... The point, however, is not
that ordering a new Presidential election in New
York State is beyond the equity jurisdiction of the
federal courts. Protecting the integrity of elections
particularly Presidential contests is essential to a
free and democratic society. See US. v. Classic supra.
[313 U.S. 299 (1941)]. It is difficult to imagine a more
damaging blow to public confidence in the electoral
process than the election of a President whose margin
of victory was provided by fraudulent registration or
voting, ballot-stuffing or other illegal means. (Emphasis
added). . . The fact that a national election might
require judicial intervention, concomitantly implicat­
ing the interests of the entire nation, if anything,

App.l03a

militates in favor of interpreting the equity jurisdic­
tion of the federal courts to include challenges to Pre­
sidential elections.” The remedy in DONOHUE would
have been to call for a new election only if it was
impossible to distinguish between real and false
ballots. In this case, the correct count is known: 66m
for Clinton, 63 million for Defendant TRUMP, who
illegally accepted the oath of office of President
despite the fact he lost the election by almost 3
million votes. The correct relief would be simply to
declare Hillary Clinton the real president, because
she won the election.
Plaintiff SCHULTZ simply requests that this
court entertain this challenge and implement the will
of the people and thus overturn the Electoral
“college” vote that diluted and thus stole Plaintiff
SCHULTZ’s and 66 million other American’s votes
and thus does not express the true will of the
American people, and instead to uphold and finally
enforce, immediately, before it is too late, our human
and constitutional rights to live in a democracy,
which means to have our votes counted equally, and
to be governed by who we elected in 2016, Hillary
Rodham Clinton, and also to protect our right to live
in a constitutional democracy in the future and not
have our votes ever diluted, thus stolen, ever again.
Finally, Plaintiff SCHULTZ requests that this
court treat the 2016 election as any other that was
illegally stolen, and enforce our right to be governed
by whom and how we choose, while protecting our
human and constitutional rights, and, under the
ancient legal theory of “AB INITIO”, to hereby revoke
and declare null and void any and all policies imple­
mented and people appointed to government positions

App.l04a
by Defendant TRUMP, as they were not appointed by
Hillary Clinton, who is the real president because
she won the election. Furthermore, under the princi­
ple of “AB INITIO”, SCHULTZ requests that this
court put things back how they were before this
illegal unjust seizure of power without election by
our citizens, and declare all judicial appointments
and confirmations null and void, and direct that any
cases heard by such illegally appointed “judges”
appointed by the unelected Defendant TRUMP to be
reheard and newly decided. Please.
The US Constitution, in Amendment 9, “RIGHTS
RETAINED BY THE PEOPLE”, states, “The enu­
meration in the Constitution, of certain rights, shall
not be construed to deny or disparage others retained
by the people.” We have the right to an equal vote,
and to be governed by who we elected. Please listen
to the Founders’ admonition and don’t try to use the
12th Amendment to steal our human, civil, and
constitutional rights to have an equal vote and to live
in a democracy. Please finally enforce the will of the
people in the 2016 Presidential election and appoint
Hillary Clinton President, immediately, as our all
our freedoms, rights, democracy, and very lives are
at stake.
Thank you.

App.l05a

Respectfully Submitted,

/s/ Frederic C. Schultz. Esq.
Pro Se Plaintiff-Appellee
8/6/2017

App.l06a

VOTER DILUTION RECORD
Vote Dilution, per state, based on 2010 Census,
which applies to 2012, 2016, 2020
elections:
^Proportional voting
State:
voter

Elec­
tors

Popula­
tion

Popula­
tion/Elec
tor=WY

voter

% of
WY

AL

9

4,779,736

531,082

2.73x

37%

AK

3

710,231

236,744

1.22x

82%

AZ

11

6,392,017

581,093

2.99x

33%

AR

6

2,915,918

485,987

2.5x

40%

CA

55

37,253,956 677,344

3.48x

29%

CO

9

5,029,196

558,800

2.87x

35%

CT

7

3,574,097

510,586

2.62x

38%

DE

3

897,934

299,312

1.54x

65%

DC

3

601,723

200,575

1.03x

97%

FLA

29

18,801,310 648,322

3.33x

30%

GA

16

9,687,653

605,479

3.11x

32%

HI

4

1,360,301

340,076

1.75

57%

ID

4

1,567,582

391,896

2.01x

50%

IL

20

12,830,632

641,532

3.30x

30%

IN

11

6,483,802

589,437

3.03x

33%

IA

6

3,046,355

507,726

2.61x

38%

KS

6

2,853,118

475,520

2.44x

41%

App.l07a

KY

8

4,339,367

542,421

2.79x

36%

LA

8

4,533,372

566,672

2.91X

34%

*ME

4

1,328,361

332,091

1.71x

59%

MD

10

5,773,552

577,356

2.97x

34%

MA

11

6,547,629

595,239

3.06x

33%

MI

16

9,883,640

617,728

3.18x

31%

MN

10

5,303,925

530,393

2.73x

37%

MS

6

2.967,297

494,550

2.54x

39%

MO

10

5,988,927

598,893

3.08x

32%

MT

3

989,415

329,805

1.70x

59%

*NB

5

1,826,341

365,269

1.88x

53%

NV

6

2,700,551

450,092

2.31x

43%

NH

4

1,316,470

329,118

3.23x

59%

NJ

14

8,791,894

627,993

3.23x

31%

NM

5

2,059,179

411,836

2.12x

47%

NY

29

19,378,102 668,211

3.44x

29%

NC

15

9,535,483

635,699

3.27x

31%

ND

3

672,591

224,197

1.15x

87%

OH

18

11,536,504 640,917

3.29x

30%

OK

7

3,751,351

535,908

2.75x

36%

OR

7

3,831,074

547,297

2.81x

36%

PA

20

12,702,379 635,119

3.26x

31%

RI

4

1,052,567

263,142

1.35x

74%

SC

9

4,625,364

513,930

2.64x

38%

App.l08a

SD

3

814,180

271,394

1.40x

72%

TN

11

6,346,105

576,919

2.97x

34%

TX

38

25,145,561

661,726

3.4x

29%

UT

6

2,763,885

460,648

2.37x

42%

VM

3

625,741

208,581

1.07x

93%

VA

13

8,001,024

615,464

3.16x

32%

WA

12

6,724,540

560,379

2.88x

35%

WV

5

1.852,994

370,599

1.90x

52%

WI

10

5,686,986

568,699

2.92x

34%

WY

3

583,626

194,542

l.OOx

100%

ssa'aa

xanoD awiaans

£

/

o

O.

SUPREME COURT PRESS
1089 COMMONWEALTH AVE. | SUITE 283
BOSTON, MA 02215
PHONE: (888) 958-5705 FAX: (888) 958-5798' •
WWW.SUPREMECOURTPRESS.COM
EDITOR@SUPREMECOURTPRESS.COM ■*-» M

c,

August 27, 2019
Clerk of the Court' •
Supreme Court of the United States Si ’-'v
1 First Street, NE
e
Washington, DC 20543
Re: FredericiG/ Schultz v‘:> John G: Roberts arid Donald J. -Trump, DkCTBD ' •
Enclosed in this package you will find the foildwing documents pertaining to the above captioned matter:

’

___copiesof the Frederic C('SCHuET2PETiTlbNrF0Ft ^RiT^pCERTibR>^RrS vs-

I.

■; > U ,

One (1) unbound 8.5” Printout h. ■ Ui-rp s„
Certificate oi'Seriicc '
‘ 'r’’ ; t

,1 \ -

t CPf

Certified WotS Cotilif (" “A
Filing Fee Check in the Amount of $300,
■i. ••'iim. £?•? EcRA-TPC Cni . V:- ‘-:-5

Other .Comments (Cifj^y} :;.i.

T^CP'* „T If tliCTVJ:-,n.
■/1 editor 7 '

*■:

. ~ucjo: ,.;:rvs~. e

Our firm, the Supreme Court Press is document preparer. If there are any questions or concerns, we can
be reached at (888) 958-5705 or by email at editor@supremecourtpress.comT
' *T

With warm regards,

The Supreme Court Press
*** Multi-box Shipment
■

SCP Tracking: Schultz-P.O. Box 634-Cover White

A(JG 3(] 2m
lcrk

---- -

